<html>
<title> - TROUBLE AT THE TOP: ARE VACANCIES AT THE DEPARTMENT OF HOMELAND SECURITY UNDERMINING THE MISSION?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
    TROUBLE AT THE TOP: ARE VACANCIES AT THE DEPARTMENT OF HOMELAND 
                   SECURITY UNDERMINING THE MISSION?

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2019

                               __________

                           Serial No. 116-15

                               __________

       Printed for the use of the Committee on Homeland Security
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov
        
        

                               __________
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE 

 37-472 PDF               WASHINGTON : 2019                             
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Eugene L. Dodaro, Comptroller General, U.S. Government 
  Accountability Office:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. John Roth, Former Inspector General, Department of Homeland 
  Security:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18

                             For the Record

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Statement of Ranking Member Bennie G. Thompson, December 12, 
    2013.........................................................     5

                                Appendix

Questions From Chairman Bennie G. Thompson for Eugene L. Dodaro..    47
Questions From Honorable Michael T. McCaul for Eugene L. Dodaro..    48
Question From Honorable Peter T. King for Eugene L. Dodaro.......    50
Questions From Honorable Michael T. McCaul for John Roth.........    56


    TROUBLE AT THE TOP: ARE VACANCIES AT THE DEPARTMENT OF HOMELAND 
                   SECURITY UNDERMINING THE MISSION?

                              ----------                              


                         Wednesday, May 1, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Payne, 
Rose, Underwood, Slotkin, Cleaver, Clarke, Watson Coleman, 
Barragan, Rogers, King, Katko, Walker, Higgins, Green of 
Tennessee, Taylor, Joyce, and Crenshaw.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony on ``Trouble at the Top: Are Vacancies at the 
Department of Homeland Security Undermining the Mission?''
    Today, the Committee on Homeland Security is meeting to 
examine how the unprecedented number of vacancies and continual 
turnover at the Department of Homeland Security is undermining 
its critical mission to secure the homeland. Put simply, since 
taking office, President Trump has decimated the leadership 
ranks of his own Department of Homeland Security. In recent 
weeks alone, President Trump has dismissed Secretary Kirstjen 
Nielsen; circumvented the law by forcing Acting Deputy 
Secretary and Under Secretary for Management Claire Grady to 
resign so he could install Customs and Border Protection 
Commissioner Kevin McAleenan as Acting Secretary; also 
Transportation Security Administration Administrator David 
Pekoske to serve as Deputy Secretary while also running TSA; 
and pulled the nomination of Immigration and Customs 
Enforcement director, prompting his resignation.
    In addition to the Secretary and deputy secretary 
vacancies, at least 12 other critical positions across the 
Department's key components and offices are operating without 
permanent leadership. The President has failed to nominate 
anyone to fill most of these vacancies, even though many have 
been held by acting officials for the entirety of the Trump 
administration.
    Moreover, there are another 50 senior leadership positions 
vacant throughout the Department, including those tasked with 
overseeing the daily operations of DHS. This chaos appears to 
be by design, orchestrated by a President who wants to be able 
to remove the Department's leadership on a whim. He has said 
himself, I like actings because I move so quickly, it gives me 
more flexibility.
    In other words, the President wants people who have not 
gone through the confirmation process because they are more 
beholden to him and more likely to carry out his controversial 
policies without question. Unfortunately, it is the Department, 
its mission, and perhaps ultimately the American people that 
suffer.
    Since being created by the merger of 22 different agencies 
in 2003, DHS has struggled to mature and become a single, 
cohesive department. These vacancies only exacerbate the 
Department's fundamental challenges with acquisition 
management, budgeting, strategic planning, and personnel 
management. The Department is left without consistent 
leadership in place to set a vision or agenda for the agency 
that extends well beyond just border security.
    DHS's mission is broad and diverse and covers everything 
from counterterrorism to cybersecurity to protection of 
dignitaries to coordinating the Federal Government's response 
to natural disasters. The Department needs a Secretary with a 
breadth of knowledge to provide leadership across DHS and help 
further unify its components and offices to protect the 
homeland.
    The reliance on acting leadership further depresses morale 
at the Department, which already consistently ranks at the 
bottom of Federal employee surveys. Today, we are fortunate to 
have two expert witnesses before us who can speak to the 
challenges DHS is facing under this administration.
    The Government Accountability Office has audited the 
Department's management since DHS was established, giving the 
comptroller general unique perspective on the current 
situation. The Department of Homeland Security Office of 
Inspector General is charged with providing independent 
oversight and promoting excellence, integrity, and 
accountability within DHS.
    Despite having left the position in late 2017, Mr. Roth is 
the last confirmed DHS inspector general, as his permanent 
replacement has still not been confirmed. I know his testimony 
will inform our oversight of the leadership voids at DHS.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              May 1, 2019
    Today, the Committee on Homeland Security is meeting to examine how 
the unprecedented number of vacancies and continual turnover at the 
Department of Homeland Security is undermining its critical mission to 
secure the homeland. Put simply, since taking office President Trump 
has decimated the leadership ranks of his own Department of Homeland 
Security.
    In recent weeks alone, President Trump has: Dismissed Secretary 
Kirstjen Nielsen; circumvented the law by forcing Acting Deputy 
Secretary and Under Secretary for Management Claire Grady to resign so 
he could install Customs and Border Protection Commissioner Kevin 
McAleenan as Acting Secretary; asked Transportation Security 
Administration (TSA) Administrator David Pekoske to serve as deputy 
secretary while also running TSA; and pulled the nomination of Ronald 
Vitiello for Immigration and Customs Enforcement director, prompting 
his resignation. In addition to the Secretary and deputy secretary 
vacancies, at least 12 other critical positions across the Department's 
key components and offices are operating without permanent leadership. 
The President has failed to nominate anyone to fill most of these 
vacancies, even though many have been held by acting officials for the 
entirety of the Trump administration. Moreover, there are another 50 
senior leadership positions vacant throughout the Department, including 
those tasked with overseeing the daily operations of DHS.
    This chaos appears to be by design, orchestrated by a President who 
wants to be able to remove the Department's leadership on a whim. He 
has said himself: ``I like Acting[s] because I can move so quickly. It 
gives me more flexibility.'' In other words, the President wants people 
who have not gone through the confirmation process because they are 
more beholden to him and more likely to carry out his controversial 
policies without question.
    Unfortunately, it is the Department, its mission, and perhaps 
ultimately the American people that suffer. Since being created by the 
merger of 22 different agencies in 2003, DHS has struggled to mature 
and become a single, cohesive Department. These vacancies only 
exacerbate the Department's fundamental challenges with acquisition 
management, budgeting, strategic planning, and personnel management. 
The Department is left without consistent leadership in place to set a 
vision or agenda for the agency that extends well beyond just border 
security.
    DHS's mission is broad and diverse and covers everything from 
counterterrorism to cybersecurity to protection of dignitaries to 
coordinating the Federal Government's response to natural disasters. 
The Department needs a Secretary with a breadth of knowledge to provide 
leadership across DHS and help further unify its components and offices 
to protect the homeland. The reliance on acting leadership further 
depresses morale at the Department, which already consistently ranks at 
the bottom of Federal employee surveys. Today, we are fortunate to have 
two expert witnesses before us who can speak to the challenges DHS is 
facing under this administration. The Government Accountability Office 
has audited the Department's management since DHS was established, 
giving the Comptroller General unique perspective on the current 
situation. The Department of Homeland Security Office of Inspector 
General is charged with providing independent oversight and promoting 
excellence, integrity, and accountability within DHS.
    Despite having left the position in late 2017, Mr. Roth is the last 
confirmed DHS Inspector General as his permanent replacement has still 
not been confirmed. I know his testimony will inform our oversight of 
the leadership void at DHS.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Thompson. I thank the witnesses for being here 
today, and I look forward to this important discussion. I now 
recognize the Ranking Member of the full committee, the 
gentleman from Alabama, Mr. Rogers, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman.
    Before I start my statement, I wanted to take a moment to 
recognize the lives lost in the recent terrorist attack on 
Easter Sunday in Sri Lanka and on Passover in San Diego. Places 
of worship should be sanctuaries where people regardless of 
faith can worship without fear.
    I look forward to working with my colleagues on this 
committee on ways to stop these kind of despicable acts.
    Mr. Chairman, I am truly glad that you called this hearing 
today. Management vacancies, mismanagement, and poor employee 
morale have plagued the Department of Homeland Security since 
it was created. Today, 17 DHS leaderships lack positions of a 
permanent leader. Just like in 2013, during the Obama 
administration, when 18 leadership positions lacked permanent 
leaders, then-Chairman McCaul convened a similar hearing to 
examine the issue.
    At that hearing, then-Ranking Member Thompson accurately 
blamed the obstructive Senate minority for holding up key 
appointments, questioned how the morale of 240,000 employees 
could be adversely affected by the leadership positions being 
filled by acting personnel, and strenuously argued the best way 
to fix the morale problem at DHS was for Congress to act to 
reform organizational structure of the Department.
    Nearly 6 years since that hearing, Chairman Thompson's 
statement still holds true. I agree wholeheartedly with what he 
had to say and ask unanimous consent to include a copy of his 
statement into the record.
    Chairman Thompson. Without objection.
    [The information referred to follows:]
         Submitted For the Record by Ranking Member Mike Rogers
             Statement of Ranking Member Bennie G. Thompson
                           December 12, 2013
    The Department of Homeland Security employs almost 240,000 
employees. Located in every State of the union and over 75 foreign 
countries, DHS employees are on the front lines each day. They secure 
our land, air, and maritime borders; enforce our immigration laws; 
safeguard critical infrastructure and cyber space; and respond to 
natural disasters.
    I understand that today's hearing is to consider whether vacancies 
in senior-level positions at the Department affect the morale and 
effectiveness of the Department's mission. Before I continue, allow me 
to provide some context for the hearing. The Majority says that 40 
percent of the leadership positions at DHS are vacant.
    According to statute, there are 28 positions within the Department 
that require Presidential appointment and Senate confirmation. Of those 
28 positions about 15 are filled with an official who is serving in an 
acting capacity. Only 1 position is listed as vacant. So, as it turns 
out, that 40 percent represents very small number of people.
    It is difficult to understand how the morale of almost 240,000 
people would be adversely affected by whether 15 people at headquarters 
have the word ``acting'' listed in their titles. Those officials who 
are listed as acting are still empowered and expected to do their jobs, 
implement orders, and carry out the normal functions of the position. 
As we consider the morale and mission effectiveness of these nearly 
240,000 employees, we should consider the factors that have a real and 
direct effect on their day-to-day lives and, therefore, may affect 
morale and mission.
    Further, as we consider the morale of the Department's employees, 
we need to acknowledge that in every survey on workplace satisfaction, 
conducted by every organization, inside or outside of the Government, 
the Department has always ranked at or near the bottom.
    The Department has been at or near last place since the day it was 
established. It was at or near last place in employee morale under 
Secretaries Ridge, Chertoff, and Napolitano. Consistent dysfunction is 
an indication of a structural issue--not an indication of a momentary 
problem.
    Fortunately, this committee has a long history of oversight of the 
management and administration of the Department. Our oversight has 
shown that the DHS suffers from a disjointed organizational structure 
and that employee morale is adversely affected by the uncertainty that 
comes from that disjointed structure. The Department's organizational 
structure leaves the officials at headquarters with little authority 
and leaves the employees in the field with little hope. Headquarters 
officials may issue management directives, but they do not have a 
mechanism to enforce those directives; meanwhile, the employees have 
few places to turn.
    Mr. Chairman, if we want to positively affect the morale and 
mission effectiveness of the employees at the Department, we should pay 
less attention to the acting status of particular officials and more 
attention to the power of officials to act. The organizational 
structure of this Department--which only we can change--prevents 
headquarters officials from requiring uniformity, transparency, and 
accountability in procurement, personnel practices, and disciplinary 
processes used in the components.
    If we want to assure that moral and mission effectiveness improve, 
we should use our legislative authority to act by assuring uniformity 
in the rules, standards, and practices used by the Department. These 
rules, standards, and practices directly affect the everyday lives of 
nearly 240,000 people. To that end, I would suggest that the Chair 
press his leadership to assure floor action on the Homeland Security 
Authorization Act that this committee ordered reported in October. This 
measure has yet to be considered by the House. It contains a 
Democratic-sponsored provision that would strengthen the authority of 
those officials in headquarters to require uniformity, transparency, 
and accountability in employment practices.
    This would be the kind of change that would help the morale of 
these employees. I have a great respect for the employees of the 
Department. Day after day, they go to work, fulfill their mission, and 
protect this Nation. They knowingly walk into a workplace where few 
people are happy. Yet, the Office of Personnel Management found that 
over 87 percent of these employees believe that the work they do is 
important.
    These employees should be able to look to Congress for solutions 
and support. Finally, Mr. Chairman, I wrote to you requesting that we 
have a representative from the Department to discuss their efforts to 
improve workplace morale. Your response indicated that a witness from 
DHS would not be necessary because ``there is little connection to DHS 
as the source of the leadership vacancy problem.''
    I agree that the source of the vacancy problem at DHS is not within 
the Department. All indications are that the source of the vacancy 
problem at DHS and other Federal departments is the Republican Minority 
in the Senate who have used the Constitutional duty to advise and 
consent as an excuse to obstruct and deny.
    Clearly, with the removal of the filibuster weapon for certain 
appointments, we are finally seeing movement on the President's 
nominations. I hope you join me in looking forward to the approval of 
Mr. Johnson to head the Department of Homeland Security. When Mr. 
Johnson becomes Secretary Johnson, I hope this committee will work with 
him to resolve the employee morale and vacancy issue at the Department. 
In the mean time, this House should use its power to give the 
Department the necessary resources and legislative authority to achieve 
the goal of improving employee morale at DHS.

    Mr. Rogers. As the Chairman said 6 years ago, to truly 
address the on-going problems with poor employee retention and 
morale, Congress must fix the Department's organizational 
structure. I hope we can come together to enact a meaningful 
authorization bill that unifies the Department and provides its 
employees with funding, authorities, training, and equipment 
they need.
    In the interim, I would employ Members of Congress to stop 
vilifying DHS employees for doing their jobs and calling for 
the elimination of their agencies. I am very concerned about 
the impact of these statements on employee morale. Every day, 
DHS employees do an exceptional job carrying out their critical 
missions. No one should blame the men and women of DHS for 
problems Congress has allowed to fester.
    I look forward to working with the Chairman on this DHS 
authorization bill, and I thank him again for convening this 
hearing.
    I yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
    Before we start, I wanted to take a moment to recognize the lives 
lost in the recent terrorist attacks on Easter Sunday in Sri Lanka and 
on Passover in San Diego. Places of worship should be sanctuaries where 
people, regardless of faith, can worship without fear. I look forward 
to working with my colleagues on ways to stop these despicable acts.
    Mr. Chairman, I'm glad that you called this hearing today. 
Management vacancies, mismanagement, and poor employee morale have 
plagued the Department of Homeland Security since it was created.
    Today, 17 DHS leadership positions lack a permanent leader. In 
2013, during the Obama administration, when 18 leadership positions 
lacked permanent leaders, then-Chairman McCaul convened a hearing to 
examine the issue.
    At that hearing, then-Ranking Member Thompson--
  <bullet> blamed an obstructive Senate Minority for holding up key 
        appointments;
  <bullet> questioned how the morale of 240,000 employees could be 
        adversely affected by leadership positions being filled by 
        acting personnel; and
  <bullet> strenuously argued that the best way to fix the morale 
        problem at DHS was for Congress to act to reform the 
        organizational structure of the Department.
    Nearly 6 years since that hearing, Chairman Thompson's statement 
stills hold true. To truly address the on-going problems with poor 
employee retention and morale, Congress must act to fix the 
Department's organization and structure. I hope we can come together to 
enact a meaningful authorization bill that unifies the Department and 
provides its employees with the funding, authorities, training, and 
equipment they need.
    In the interim, I would implore Members of Congress to stop 
vilifying DHS employees for doing their jobs and calling for the 
elimination of their agencies. I am very concerned about the impact 
these statements have on employee morale.
    Every day, DHS employees do an exceptional job carrying out their 
critical missions. No one should blame the men and women of DHS for 
problems Congress has allowed to fester.
    I look forward to working with the Chairman on a DHS authorization 
bill and I thank him again for convening this hearing.

    Chairman Thompson. Thank you.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                              May 1, 2019
    Chairman Bennie G. Thompson, and Ranking Member Mike Rogers, for 
holding today's hearing entitled, ``Trouble at the Top: Are Vacancies 
at the Department of Homeland Security Undermining the Mission?''
    Today's hearing will give Members an opportunity to explore the 
impact of DHS's leadership void on the Department's ability to carry 
out its critical mission.
    The witness for this hearing and the topic had been Secretary 
Neilson and the fiscal year 2020 budget until her forced resignation 
earlier this month.
    The focus of this hearing is now on the troubling problem of 
vacancies in critical offices throughout DHS.
    I welcome our witnesses who can offer valuable perspective on the 
vacancies that have plagued this administration.
    My thanks to our witnesses:
  <bullet> The Honorable Gene L. Dodaro, comptroller general of the 
        United States, Government Accountability Office (GAO); and
  <bullet> The Honorable John Roth, former inspector general, 
        Department of Homeland Security (DHS).
    President Trump recently expressed his preference for acting 
officials who are more likely to support his controversial decisions.
    Acting officials currently hold the most senior leadership 
positions in the Department at the expense of America's security.
    President Trump has decimated the leadership ranks at DHS.
    The Department is currently operating without a permanent Secretary 
and deputy secretary as well 12 component and office heads.
    In most cases, the President has not nominated anyone to fulfill 
these key vacancies.
    Further, some of the positions have been filled by acting officials 
for the entirety of the Trump administration such as the position of 
Inspector General.
    There are another 50 senior leadership roles vacant throughout the 
Department including those tasked with overseeing the daily operations 
of the Department.
    Since being created by the merging of 22 different agencies in 
2003, DHS has struggled to mature and become a single, cohesive 
Department.
    The vacancies only exacerbate the Department's fundamental 
challenges with acquisition management, budgeting, strategic planning, 
and personnel management.
    The Department has been left weakened and disorganized without 
consistent leadership soundly in place to set a vision or agenda for 
the agency that extends beyond border security.
    Morale throughout the Department of Homeland Security has been a 
long and intractable problem that has only gotten worse with this 
administration.
    The recent sudden departure of Secretary Kirstjen Nielsen and 
Acting Deputy Secretary/Under Secretary for Management Claire Grady 
renewed concerns that the most senior leadership roles throughout DHS 
are filled by acting officials.
    In addition to the Secretary and deputy secretary, 12 components 
and offices within DHS operate without permanent appointees.
    Those vacancies include the heads of U.S. Customs and Border 
Protection (CBP), Federal Emergency Management Agency (FEMA), U.S. 
Immigration and Customs Enforcement (ICE), and the Secret Service.
    The current acting deputy secretary, David Pekoske also retains his 
role of Transportation Security Administration (TSA) administrator--a 
full-time job.
    In most cases, the President has not nominated anyone to fulfill 
the key leadership vacancies and does not seem inclined to do so.
    There are only 4 nominations--chief financial officer, under 
secretary for science and technology, under secretary for policy, and 
inspector general--pending with the Senate.
    Some of the positions have been filled by acting officials for the 
entirety of the Trump administration, including the deputy secretary 
and director of ICE.
    Acting is something that the President became familiar with during 
his time as reality show host of the Apprentice.
    Governance is an essential responsibility of the President of the 
United States and the neglect of this responsibility is an injury to 
the Nation.
    This committee along with other oversight communities of the House 
and the Senate must assess the implication of vacancies and high 
turnovers in the offices at the top of agencies charged with the 
defense, security, and general welfare of this Nation.
    I look forward to the testimony of today's witnesses.

    Chairman Thompson. I welcome our panel of witnesses.
    Our first witness is Mr. Gene Dodaro, the U.S. comptroller 
general since 2010. Mr. Dodaro has served in many roles during 
his more than 45 years at the Government Accountability Office. 
In his current role as comptroller general, he oversees the 
development and issuance of hundreds of reports and testimonies 
to Congress each year that examine how to make the Government 
work more efficiently and effectively.
    Next, Mr. Roth, John Roth, who was inspector general for 
the Department of Homeland Security from 2014 through 2017. As 
an independent inspector general, Mr. Roth led the independent 
oversight work of his office to promote excellence, integrity, 
and accountability within DHS. Mr. Roth retired from the 
Federal Government after 32 years of service.
    Without objection, the witnesses' full statement will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Dodaro.

   STATEMENT OF EUGENE L. DODARO, COMPTROLLER GENERAL, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good morning 
to you, Ranking Member Rogers, Members of the committee. I am 
very pleased to be here today to talk about the management 
challenges at the Department of Homeland Security.
    I think critical leadership is needed to be sustained to 
address a range of fundamental management challenges at the 
Department. There are three areas that are on GAO's high-risk 
list, which we keep as the highest risk across the Federal 
Government.
    The first is strengthening the management functions of the 
Department, which includes acquisition, IT management, 
financial management, human capital management. Second is 
reforming the Flood Insurance Program. Third is limiting the 
Federal Government's fiscal exposure by better managing climate 
change risks. These areas are all very important.
    Our latest update that I presented to the Congress last 
month on the high-risk area, as of March 2019, we found in the 
strengthening management function area at the Department that 
the Department had fully met 17 of the 30 critical outcomes 
that we are looking for and agreed to with the Department and 
these management functions. But there was still work to do in 
many other areas.
    For example, in the acquisition area, we believe that they 
have to use the tools that they put in place to more 
effectively manage their acquisition process to get better 
outcomes and have a more efficient and effective process.
    Second, they are a long way from having modern management 
financial management systems in place. They are in the process 
of instituting new system at the Coast Guard, but they need 
systems at FEMA and ICE, as well, so that area is in need of 
reform. They continue to have financial reporting and 
information security weaknesses as part of their annual 
financial audits, even though they get a clean opinion.
    Third is in the area of human capital management. There are 
critical vacancies and skill gaps across the Department in the 
acquisition area, the cybersecurity work force area, the 
financial management area, so that area needs attention, as 
well.
    We have been working with the Department in a very 
constructive fashion. We meet on a quarterly basis with them to 
review their progress in addressing these issues. In the 
cybersecurity realm, we have made a number of recommendations 
to improve their activities and overseeing the efforts across 
the Federal Government to identify cybersecurity concerns.
    You know, I identified cybersecurity as a Government-wide 
issue in 1997. We had identified critical infrastructure 
protection in 2003. Still to the day, I don't believe the 
Federal Government is moving with the sense of urgency 
commensurate with the evolving threat in the cybersecurity 
area.
    So we have made some recommendations to DHS to strengthen 
its efforts, but also to have it work more effectively with the 
critical sectors we have across the economy--the communications 
sector, the electricity sector, financial markets, and other 
sectors--to make sure that their efforts to voluntarily use the 
standards from the National Institute of Standards and 
Technologies to protect their computer assets are effective in 
this area, as well.
    Now, while we are focused on these high-risk areas, we also 
look at functions at the Department across its spectrum of 
responsibilities. In April, on the 19th, I sent the Acting 
Secretary a letter outlining 26 high-priority GAO 
recommendations that had not yet been implemented that spanned 
emergency preparedness areas, border security, transportation 
security, cybersecurity, chemical security programs, and other 
areas.
    So we will be working with them on this. I would say we 
have had a very constructive working relationship with DHS 
leadership and been very engaged with them. We plan to continue 
to engage with the current leadership in whatever capacity they 
are functioning in, whether acting or confirmed. Hopefully over 
time more confirmed positions will be approved by the Senate to 
provide some greater stability in their management functions.
    So I thank you very much for the opportunity to be here 
today. I would be happy to answer questions at the appropriate 
time.
    [The prepared statement of Mr. Dodaro follows:]
                 Prepared Statement of Eugene L. Dodaro
                              May 1, 2019
                             gao highlights
    Highlights of GAO-19-544T, a testimony before the Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    In 2003, GAO designated Implementing and Transforming DHS as a 
high-risk area to the Federal Government. DHS has made considerable 
progress in transforming its original component agencies into a single 
Cabinet-level department, and as a result, in 2013, GAO narrowed the 
scope of the high-risk area to focus on Strengthening DHS Management 
Functions.
    In addition, DHS leadership is responsible for implementing 
numerous recommendations that GAO has made to the Department and its 
component agencies. Current vacancies in top leadership positions could 
pose a challenge to addressing high-risk areas and priority 
recommendations that span DHS's diverse missions, which include 
preventing terrorism and enhancing security, managing our borders, 
administering immigration laws, securing cyber space, and responding to 
disasters.
    This testimony discusses the need for DHS leadership commitment to 
strengthen its management functions and address GAO's priority 
recommendations. This testimony is based on GAO's 2019 high-risk update 
and other reports issued from March 2006 through April 2019.
What GAO Recommends
    Since the creation of DHS, GAO has made approximately 2,800 
recommendations to the Department, and DHS has implemented more than 75 
percent of them, strengthening program management and performance 
measurement, among other things. GAO will continue to monitor DHS's 
progress in strengthening management functions and addressing priority 
recommendations.
 department of homeland security.--continued leadership is critical to 
              addressing a range of management challenges
What GAO Found
    With the support and commitment of top leadership, the Department 
of Homeland Security (DHS) has made important progress in strengthening 
its management functions; however, considerable work remains. As of 
March 2019, DHS had fully addressed 17 of the 30 outcomes related to 
its management functions (see table). DHS needs to continue to show 
sustained leadership commitment in implementing its Integrated Strategy 
for High-Risk Management to achieve the remaining outcomes. Leadership 
commitment is also pivotal in addressing other GAO high-risk areas 
where DHS has a role, such as ensuring the cybersecurity of the Nation, 
the National Flood Insurance Program, and limiting the Federal 
Government's fiscal exposure by better managing climate change risks. 
Currently, DHS has acting officials serving in 8 positions requiring 
Senate confirmation, including positions with responsibilities for 
implementing high-risk outcomes, such as the Secretary, deputy 
secretary, and under secretary for management.

   TABLE.--GAO ASSESSMENT OF DEPARTMENT OF HOMELAND SECURITY (DHS) PROGRESS ON KEY OUTCOMES ACROSS MANAGEMENT
                                             AREAS, AS OF MARCH 2019
----------------------------------------------------------------------------------------------------------------
                                                                        Mostly   Partially
                 Key Management Function                     Fully    Addressed  Addressed  Initiated    Total
                                                           Addressed      *          **        ***
----------------------------------------------------------------------------------------------------------------
Acquisition management...................................          2          2          1  .........          5
Information technology management........................          5          1  .........  .........          6
Financial management.....................................          2  .........          3          3          8
Human capital management.................................          5          1          1  .........          7
Management integration...................................          3  .........          1  .........          4
                                                          ------------------------------------------------------
      Total..............................................         17          4          6          3         30
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of DHS documents, interviews, and prior GAO reports./GAO-19-544T
* ``Mostly addressed'': Progress is significant and a small amount of work remains.
** ``Partially addressed'': Progress is measurable, but significant work remains.
*** ``Initiated'': Activities have been initiated to address the outcome, but it is too early to report
  progress.

    In April 2019, GAO sent a letter**** to the Acting Secretary of 
Homeland Security detailing 26 open recommendations that GAO believes 
warrant the highest-priority personal attention from the Department and 
its components. These 26 recommendations fall into 6 major areas--
emergency preparedness and response, border security, transportation 
security, infrastructure and management, cybersecurity, and chemical 
and nuclear security. For example, GAO has recommended that DHS take 
steps to strengthen human capital management, such as better managing 
and assessing its cybersecurity workforce gaps and areas of critical 
need. Fourteen of the 26 recommendations have been issued to acting 
officials serving in vacant positions, including 12 to the Secretary of 
Homeland Security, and two to the Federal Emergency Management Agency 
which is currently operating under acting leadership.
---------------------------------------------------------------------------
    **** The information is retained in committee files and is 
available at https://www.gao.gov/products/GAO-19-360SP.
---------------------------------------------------------------------------
    Chairman Thompson, Ranking Member Rogers, and Members of the 
Committee: I am pleased to be here today to discuss the importance of 
Department of Homeland Security (DHS) leadership in addressing 
management challenges and the Department's progress thus far. As you 
know, when DHS began operations in 2003, Department leadership faced 
the daunting task of transforming 22 agencies--several with major 
management challenges--into one department. At that time, we recognized 
that the creation of DHS was an enormous undertaking that could take 
years to implement. Failure to effectively address management 
challenges could have serious National security consequences. In 2003, 
shortly after the Department was formed, we designated Implementing and 
Transforming DHS as a high-risk area to the Federal Government. Today, 
the work to strengthen DHS management continues.
    DHS has made considerable progress in transforming its original 
component agencies into a single Cabinet-level department. As a result, 
in 2013, we narrowed the scope of the high-risk area to focus on 
strengthening DHS management functions (i.e., acquisition management, 
information technology management, financial management, human capital 
management, and management integration) and changed the name of the 
high-risk area to Strengthening DHS Management Functions to reflect 
this focus. Over the last 16 years, leadership commitment has been a 
key factor in DHS's progress toward implementing our criteria for 
removal from the High-Risk List. It remains essential for DHS to 
maintain top leadership support and sustained commitment to ensure 
continued progress.\1\
---------------------------------------------------------------------------
    \1\ The five criteria for removal are the agency must have: (1) A 
demonstrated strong commitment and top leadership support to address 
the risks; (2) the capacity--the people and other resources--to resolve 
the risks; (3) a corrective action plan that identifies the root 
causes, identifies effective solutions, and provides for substantially 
completing corrective measures in the near term, including but not 
limited to steps necessary to implement solutions we recommended; (4) a 
program instituted to monitor and independently validate the 
effectiveness and sustainability of corrective measures; and (5) the 
ability to demonstrate progress in implementing corrective measures.
---------------------------------------------------------------------------
    In addition to addressing its management functions high-risk area, 
DHS leadership is responsible for implementing numerous recommendations 
that we have made to the Department and its component agencies. Since 
DHS began operations in 2003, we have made about 2,800 recommendations, 
and DHS has implemented more than 75 percent of them, thereby 
strengthening program management and performance measurement, among 
other things. In April 2019, we sent a letter to the Acting Secretary 
of Homeland Security detailing 26 open recommendations that we deem 
highest priority for implementation.\2\ Given that these 
recommendations are often the most complex and difficult to implement, 
top DHS leadership will play an important role in the actions to 
address these recommendations.
---------------------------------------------------------------------------
    \2\ GAO, Priority Open Recommendations: Department of Homeland 
Security, GAO-19-360SP (Washington, DC: Apr. 19, 2019). We highlight 
priority recommendations because, upon implementation, they may 
significantly improve Government operation, for example, by realizing 
large-dollar savings; eliminating mismanagement, fraud, and abuse; or 
making progress toward addressing a high-risk area or duplication 
issue.
---------------------------------------------------------------------------
    Current vacancies in top leadership positions could pose a 
challenge to addressing high-risk areas and priority recommendations 
that span DHS's diverse missions, which include preventing terrorism 
and enhancing security, managing our borders, administering immigration 
laws, securing cyber space, and responding to disasters. Based on 
information we have received from DHS in compliance with the Federal 
Vacancies Reform Act of 1998 (Vacancies Act), there are currently 
acting officials serving in 8 positions requiring Senate 
confirmation.\3\ Specifically, as of April 26, 2019, the following 
positions remain vacant: Secretary (16 days), deputy secretary (377 
days), under secretary for management (16 days), under secretary for 
science and technology (826 days), director of U.S. Immigration and 
Customs Enforcement (ICE) (826 days), administrator of Federal 
Emergency Management Agency (FEMA) (50 days), chief financial officer 
(826 days), and inspector general (512 days).\4\
---------------------------------------------------------------------------
    \3\ Pub. L. No. 105-277, Div. C, Title I, 112 Stat. 2681-611 (1998) 
(codified as amended at 5 U.S.C.  3345-3349d). The Vacancies Act 
requires executive departments and agencies to report to the Congress 
and to us certain information about a vacancy in a Presidentially-
appointed, Senate-confirmed position immediately upon the occurrence of 
events specified in the statute. The Vacancies Act further requires us 
to report to Congress, the President, and the Office of Personnel 
Management if we determine that an acting officer is serving longer 
than the 210-day period permitted under the statute or any applicable 
extensions.
    \4\ In addition, the Presidentially-appointed, Senate-confirmed 
position of under secretary for the Office of Strategy, Policy, and 
Plans, which was established in December 2016, has not yet been filled 
but a nomination for the position is currently pending. In its report 
to us concerning the vacancy in the Secretary position, the Department 
stated the commissioner for U.S. Customs and Border Protection was 
serving as Acting Secretary pursuant to section 113(g)(2) of title 6 of 
the United States Code, rather than the Vacancies Act. Generally, the 
Vacancies Act is the exclusive means for temporarily authorizing an 
acting official to serve in a vacant position, unless another means is 
expressly authorized by statute. Section 113(g) is such a statute and 
provides at section 113(g)(1) that if both the positions of Secretary 
and deputy secretary are vacant, the under secretary for management is 
required to serve as acting secretary. In the absence of an under 
secretary for management, section 113(g)(2) permits the Secretary to 
designate other officers in further order of succession to serve as 
acting secretary. We calculated the durations of the vacancies based on 
information reported to us by DHS as required pursuant to the Vacancies 
Act. 5 U.S.C.  3349.
---------------------------------------------------------------------------
    Filling vacancies--including top DHS leadership positions and the 
heads of operational components--with confirmed appointees, as 
applicable, could help to ensure continued leadership commitment across 
all of DHS's mission areas. Although the Department was formed as part 
of a determined National effort to safeguard the United States against 
terrorism, Department leaders must execute all of the Department's 
missions. For example, Hurricane Katrina in 2005, one of the largest 
natural disasters in our Nation's history, refocused attention on the 
importance of DHS's role in providing the coordinated, comprehensive 
Federal response in the event of a natural disaster.\5\ In addition, 
DHS focuses efforts on cybersecurity because cyber-based intrusions and 
attacks on Federal systems and systems supporting our Nation's critical 
infrastructure are evolving and becoming more sophisticated, such as 
the significant 2015 Office of Personnel Management (OPM) data breaches 
that affected 21.5 million individuals.\6\ Such examples demonstrate 
the range of threats that DHS leaders must be prepared to address.
---------------------------------------------------------------------------
    \5\ GAO, Hurricane Katrina: GAO's Preliminary Observations 
Regarding Preparedness, Response, and Recovery, GAO-06-442T 
(Washington, DC: Mar. 8, 2006).
    \6\ GAO, Information Security: OPM Has Improved Controls, but 
Further Efforts Are Needed, GAO-17-614 (Washington, DC: Aug. 3, 2017).
---------------------------------------------------------------------------
    With DHS's wide-ranging missions, DHS leadership also has a pivotal 
role in addressing other DHS-specific and Government-wide areas on our 
high-risk list. Specifically, DHS is responsible for addressing a high-
risk area related to FEMA's management of the National Flood Insurance 
Program. DHS and FEMA will also play key roles in the high-risk area of 
Limiting the Federal Government's Fiscal Exposure by Better Managing 
Climate Change Risks. \7\ Additionally, DHS has a key role in ensuring 
cybersecurity of the Nation. For example, DHS has established the 
National Cybersecurity and Communications Integration Center, which 
functions as the 24/7 cyber monitoring, incident response, and 
management center for the Federal civilian government. Further, DHS has 
a nexus and responsibilities in several of our other Government-wide, 
high-risk areas including: (1) Improving management of information 
technology acquisitions and operations, (2) strategic human capital 
management, (3) managing Federal real property, and (4) the Government-
wide security clearance process.\8\
---------------------------------------------------------------------------
    \7\ GAO, High-Risk Series: Substantial Efforts Needed to Achieve 
Greater Progress on High-Risk Area, GAO-19-157SP (Washington, DC: Mar. 
6, 2019).
    \8\ GAO-19-157SP.
---------------------------------------------------------------------------
    My statement today discusses the need for DHS's continued 
leadership commitment to: (1) Strengthen its management functions and 
(2) address our priority recommendations. This statement is based on 
our 2019 high-risk update and other reports we issued from March 2006 
through April 2019.\9\ For these products we analyzed DHS strategies 
and other documents related to the Department's efforts to address its 
high-risk areas and interviewed DHS officials, among other things. More 
detailed information on the scope and methodology of our prior work can 
be found within each specific report. We conducted the work on which 
this statement is based in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \9\ GAO, High Risk: Important Progress Made, but More Work Needed 
to Strengthen DHS Management, GAO-19-475T (Washington, DC: Apr. 3, 
2019); GAO-19-157SP; Southwest Border Security: CBP Is Evaluating 
Designs and Locations for Border Barriers but Is Proceeding Without Key 
Information, GAO-18-614 (Washington, DC: July 30, 2018); Roundtable on 
Reauthorizing the Department of Homeland Security, Statement of George 
A. Scott, managing director, Homeland Security and Justice (Washington, 
DC: February 2018); Cybersecurity Workforce: Urgent Need for DHS to 
Take Actions to Identify Its Position and Critical Skill Requirements, 
GAO-18-175 (Washington, DC: Feb. 6, 2018); High-Risk Series: Progress 
on Many High-Risk Areas, while Substantial Efforts Needed on Others, 
GAO-17-317 (Washington, DC: Feb. 15, 2017); Cybersecurity: DHS's 
National Integration Center Generally Performs Required Functions but 
Needs to Evaluate Its Activities More Completely, GAO-17-163 
(Washington, DC: Feb. 1, 2017); Hurricane Sandy: An Investment Strategy 
Could Help the Federal Government Enhance National Resilience for 
Future Disasters, GAO-15-515 (Washington, DC: July 30, 2015); Federal 
Real Property: DHS and GSA Need to Strengthen the Management of DHS 
Headquarters Consolidation, GAO-14-648 (Washington, DC: Sept. 19, 
2014); Extreme Weather Events: Limiting Federal Fiscal Exposure and 
Increasing the Nation's Resilience, GAO-14-364T (Washington, DC: Feb. 
12, 2014); Federal Disaster Assistance: Improved Criteria Needed to 
Assess a Jurisdiction's Capability to Respond and Recover on Its Own, 
GAO-12-838 (Washington, DC: Sept. 12, 2012); Government Performance: 
GPRA Modernization Act Provides Opportunities to Help Address Fiscal, 
Performance, and Management Challenges, GAO-11-466T (Washington, DC: 
Mar. 16, 2011); Flood Insurance: FEMA's Rate-Setting Process Warrants 
Attention, GAO-09-12 (Washington, DC: Oct. 31, 2008); and GAO-06-442T.
---------------------------------------------------------------------------
    top leadership commitment is critical to sustained progress in 
                   strengthening management functions
    With top leadership support and commitment, DHS has made important 
progress in strengthening its management functions, but considerable 
work remains. As shown in figure 1, as of March 2019, DHS had met 3 out 
of 5 criteria for removal from our High-Risk List--leadership 
commitment, action planning, and monitoring progress.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    DHS has partially met the remaining two criteria: Capacity (i.e., 
people and other resources) and demonstrated, sustained progress. To 
address the criteria for capacity, DHS needs to make additional 
progress in identifying and allocating resources in certain areas--
namely, acquisition, information technology, and financial management--
to fully demonstrate its capacity. For the criteria for demonstrated, 
sustained progress, we reported in March 2019 that DHS had fully 
addressed 17 out of the 30 outcomes that are the basis for gauging 
DHS's progress across management areas, as shown in table 1.
    To fully meet the criteria for demonstrated, sustained progress, 
DHS needs to continue implementing its Integrated Strategy for High-
Risk Management and maintain engagement with us to show measurable, 
sustainable progress in implementing corrective actions and achieving 
outcomes. DHS can accomplish this by, among other things, maintaining a 
high level of top leadership support and sustained commitment to ensure 
continued progress in executing its corrective actions through 
completion, and increasing employee engagement and morale.

   TABLE.--GAO ASSESSMENT OF DEPARTMENT OF HOMELAND SECURITY (DHS) PROGRESS ON KEY OUTCOMES ACROSS MANAGEMENT
                                             AREAS, AS OF MARCH 2019
----------------------------------------------------------------------------------------------------------------
                                                                        Mostly   Partially
                 Key Management Function                     Fully    Addressed  Addressed  Initiated    Total
                                                           Addressed      *          **        ***
----------------------------------------------------------------------------------------------------------------
Acquisition management...................................          2          2          1  .........          5
Information technology management........................          5          1  .........  .........          6
Financial management.....................................          2  .........          3          3          8
Human capital management.................................          5          1          1  .........          7
Management integration...................................          3  .........          1  .........          4
                                                          ------------------------------------------------------
      Total..............................................         17          4          6          3         30
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of DHS documents, interviews, and prior GAO reports./GAO-19-544T
* ``Mostly addressed'': Progress is significant and a small amount of work remains.
** ``Partially addressed'': Progress is measurable, but significant work remains.
*** ``Initiated'': Activities have been initiated to address the outcome, but it is too early to report
  progress.

    Examples of important programs and remaining work in the key 
management functions include:
  <bullet> In the key management function of human capital management, 
        DHS leadership is needed to address skills gaps that have had a 
        significant role in the DHS management high-risk area. For 
        example, we have found that DHS lacks guidance on how to 
        identify critical cybersecurity and acquisition skills needed 
        to support its new information technology delivery model. We 
        have also found that DHS has insufficient technical skills to 
        support its biometric identification services program. 
        Addressing these skill gaps could help DHS fully demonstrate 
        its capacity to strengthen and integrate its management 
        functions.
  <bullet> Additionally, within human capital management, DHS has 
        struggled with low employee morale scores since it began 
        operations in 2003. DHS's 2018 score ranked 20th among 20 large 
        and very large Federal agencies. Increasing employee engagement 
        and morale is critical to strengthening DHS's mission and 
        management functions. DHS has continued to strengthen its 
        employee engagement efforts by implementing our 2012 
        recommendation to establish metrics of success within 
        components' action plans for addressing its employee 
        satisfaction problems. Further, DHS has conducted audits to 
        better ensure components are basing hiring decisions and 
        promotions on human capital competencies. In addition, OPM's 
        2018 Federal Employee Viewpoint Survey data showed that in the 
        past 2 years, DHS's score on the Employee Engagement Index 
        (EEI) increased by 4 points--from 56 in 2016 to 60 in 2018--
        which was 1 point more than the Government-wide increase over 
        the same period. While this improvement is notable, DHS's 
        current EEI score is 1 point below its EEI baseline score in 
        2010, suggesting that DHS is still working to regain lost 
        ground after an 8-point drop between 2010 and 2015.
  <bullet> In the key management function of financial management, DHS 
        officials have faced challenges modernizing DHS components' 
        financial management systems and business processes that affect 
        the Department's ability to have ready access to timely and 
        reliable information for informed decision making. Effectively 
        modernizing financial management systems for the Coast Guard, 
        FEMA, and ICE would help improve the reliability of their 
        financial reporting.
    As we have reported, perhaps the single most important element of 
successful management improvement and transformation initiatives is the 
demonstrated commitment of top leaders, as shown by their personal 
involvement in reform efforts.\10\ With regard to leadership 
commitment, DHS's top leadership, including leaders at the Secretary 
and deputy secretary level, has demonstrated exemplary commitment and 
support for addressing the Department's management challenges. They 
have also taken actions to institutionalize this commitment to help 
ensure the long-term success of the Department's efforts. One such 
effort is the under secretary for management's Integrated Priorities 
initiative to strengthen the integration of DHS's business operations 
across the Department.
---------------------------------------------------------------------------
    \10\ GAO-11-466T.
---------------------------------------------------------------------------
    During monthly leadership meetings with the Under Secretary for 
Management, the Department's Chief Executive Officers have been 
providing status updates on their respective actions to address this 
high-risk designation. Furthermore, top DHS leaders, such as the under 
secretary for management and the Department's Chief Executive Officers, 
routinely meet with our management to discuss progress on high-risk 
areas.
continued leadership commitment is critical to addressing priority open 
                            recommendations
    In April 2019, we sent a letter to the Acting Secretary of Homeland 
Security detailing 26 open recommendations that we deem highest 
priority for implementation.\11\ Priority recommendations are those 
that we believe warrant priority personal attention from heads of key 
departments or agencies. These 26 recommendations fall into 6 major 
areas--emergency preparedness and response, border security, 
transportation security, infrastructure and management, cybersecurity, 
and chemical and nuclear security. Many of these recommendations cut 
across DHS's mission areas that are critical for National security. 
Given that these recommendations are often the most complex and 
difficult to implement, top DHS leadership will play a critical role in 
addressing them.
---------------------------------------------------------------------------
    \11\ GAO-19-360SP.
---------------------------------------------------------------------------
    Fourteen of the 26 priority open recommendations we identified in 
the April 2019 letter are directed to acting officials serving in 
vacant positions. We have issued 12 recommendations to the Secretary of 
Homeland Security who is currently an acting official.\12\ We have also 
issued two recommendations to FEMA which is currently operating under 
acting leadership.
---------------------------------------------------------------------------
    \12\ GAO-19-360SP.
---------------------------------------------------------------------------
    Committed and consistent leadership at the Department and component 
levels will be critical for addressing our priority recommendations. 
For example:
  <bullet> In September 2014, we recommended that the Secretary of 
        Homeland Security work jointly with the administrator of the 
        General Services Administration to strengthen management of the 
        on-going acquisition project to develop the multi-billion 
        dollar headquarters facilities at the St. Elizabeths campus in 
        Washington, DC.
    Leadership is critical in this effort, given the magnitude of the 
project and the impact of headquarters consolidation on DHS 
operations.\13\
---------------------------------------------------------------------------
    \13\ GAO-14-648.
---------------------------------------------------------------------------
  <bullet> In October 2008, we recommended actions that FEMA should 
        take to improve its administration of the National Flood 
        Insurance Program high-risk area.\14\ We also recommended in 
        September 2012 that FEMA develop a methodology to better assess 
        a jurisdiction's capability to respond to and recover from a 
        disaster without Federal assistance.\15\ In July 2015, we 
        further recommended that the Mitigation Framework Leadership 
        Group establish an investment strategy to identify, prioritize, 
        and guide Federal investments in disaster resilience.\16\ 
        Implementing these actions could limit the Federal Government's 
        fiscal exposure and increase the Nation's resilience to extreme 
        weather events as the costs and impacts of weather disasters 
        resulting from floods, drought, and other events are expected 
        to increase in significance as previously ``rare'' events 
        become more common and intense.\17\
---------------------------------------------------------------------------
    \14\ GAO-09-12.
    \15\ GAO-12-838.
    \16\ GAO-15-515.
    \17\ GAO-14-364T.
---------------------------------------------------------------------------
  <bullet> In July 2018, we recommended that U.S. Customs and Border 
        Protection (CBP) analyze the costs associated with future 
        barrier segments along the Southwest Border and include cost as 
        a factor in the Impedance and Denial Prioritization Strategy. 
        Obtaining this key information could help CBP evaluate designs 
        and prioritize locations for future border barrier segments to 
        deter cross-border illegal activity.\18\
---------------------------------------------------------------------------
    \18\ GAO-18-614.
---------------------------------------------------------------------------
  <bullet> In February 2017, we recommended that DHS establish metrics 
        and methods by which to evaluate the performance of DHS's 
        National Cybersecurity and Communications Integration Center in 
        relation to its statutorily-required cybersecurity functions. 
        Until it develops metrics and methods to evaluate its 
        performance, the center cannot ensure that it is effectively 
        meeting its statutory requirements, while cyber-based 
        intrusions and attacks on Federal systems and systems 
        supporting our Nation's critical infrastructure are becoming 
        more numerous, damaging, and disruptive.\19\ We also 
        recommended in February 2018 that DHS take steps to better 
        manage and assess its cybersecurity workforce gaps and areas of 
        critical need.\20\ Given its important role in the Nation's 
        cybersecurity, taking steps to address these issues will be 
        critical.
---------------------------------------------------------------------------
    \19\ GAO-17-163.
    \20\ GAO-18-175.
---------------------------------------------------------------------------
    We will continue to monitor DHS's progress in strengthening 
management functions and addressing priority recommendations. We also 
plan to continue to meet quarterly with DHS management to gauge 
leadership commitment, discuss progress, and review DHS's goals and 
corrective action plans in its Integrated Strategy for High-Risk 
Management, which DHS issues twice per year.
    Thank you, Chairman Thompson, Ranking Member Rogers, and Members of 
the committee. This concludes my testimony. I would be pleased to 
answer any questions.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Roth to summarize his statement for 5 
minutes.

STATEMENT OF JOHN ROTH, FORMER INSPECTOR GENERAL, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Roth. Chairman Thompson, Ranking Member Rogers, and 
Members of the committee, thank you for the invitation to 
testify here today concerning leadership vacancies at the 
Department of Homeland Security. As you know, I served as 
inspector general for DHS for almost 4 years until I retired in 
November 2017 after almost 32 years of Government service.
    In the best of times, DHS is an unruly and difficult-to-
manage organization, and we are not in the best of times. The 
nature and extent of senior leadership vacancies in the 
Department is cause for concern, as such pervasive vacancies 
significantly hamper the Department's ability to carry out its 
all-important mission.
    I had the unique opportunity and privilege to examine all 
areas of DHS programs and operations. Our reviews found even 
when fully staffed a Department that was challenged in meeting 
its goals and struggling to mature as an organization. Our 
reviews highlighted significant issues that touched nearly 
every area of the Department, including acquisition management, 
personnel management, employee morale, grants management, 
cybersecurity, border security, and transportation security.
    We sought to understand the root causes for these 
persistent shortfalls. These shortfalls persisted over time 
regardless of administration and can be fairly attributed to 
the following two root causes--first, a lack of unity of 
effort; and second, poor internal controls.
    DHS has demonstrated an inability to mesh divergent 
components with different histories, cultures, and missions 
into a single agency with a unity of effort. Knitting together 
a unified DHS with all components requires strong and committed 
leadership and oversight. This goal is thwarted by pervasive 
senior leadership vacancies.
    The failures reflected in audit reports also reflect an 
inability to develop, oversee, and enforce the internal 
controls that are typical of a mature organization.
    The current environment of relatively weak internal 
controls affects all aspects of the Department's mission. Even 
when fully staffed, the Secretary's office and the deputy 
secretary's office are simply too small to be aware of, much 
less effectively manage, the significant and varied issues that 
face DHS.
    In my time as inspector general through two 
administrations, senior leadership was continually caught by 
surprise by various issues that bubbled to the surface. They 
simply did not have the staff or the structure to be fully 
informed to conduct effective oversight.
    In November 2016, after noting some progress and attempting 
to ensure a unity of effort, we noted that that progress is 
largely as a result of the force of will of a small team of 
Department's leadership. However we concluded that such effort 
was unsustainable in the long run, absent structural changes to 
ensure streamlined oversight, communication, responsibility, 
and accountability, changes that must be enshrined in law.
    In November 2017, in one of my final reports regarding the 
management challenges facing the Department, I wrote that 
senior leadership positions suffer from a lack of permanent 
Presidentially-appointed and Senate-confirmed officials. As a 
result there has not been the opportunity or leadership 
stability to implement needed reforms.
    Long-standing vacancies hurt the Department in a number of 
ways. First, those who hold the position in an acting capacity 
are simply in a caretaker role and are justifiably hesitant to 
make decisions that would tie the hands of the individual who 
would ultimately be appointed to that position.
    Second, a full leadership cadre of Presidentially-
appointed, Senate-confirmed officials increases political 
accountability, particularly as it relates to Congressional 
oversight.
    Third, Presidential appointees are better able to represent 
the Department's interests in interagency coordination.
    Finally, full-time political appointees can bring fresh 
perspectives and energies to a position. They are better able 
to reflect the administration's policies and often have a 
desire to drive specific issues to completion during their 
tenure.
    The practice of dual-hatting, having senior officials serve 
two roles, undermines the seriousness of the mission of the 
agencies whose leadership is being plundered. This lack of 
settled leadership contributes to the significant morale 
problems that are endemic to DHS components. For DHS to mature 
as an organization and address the significant root causes of 
its shortfalls, it must have in place dedicated long-term 
leadership.
    I thank the committee again for the invitation to testify. 
This concludes my prepared remarks, and I am happy to answer 
any questions.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                              May 1, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, thank you for inviting me here today to discuss leadership 
vacancies at the Department of Homeland Security. As you know, I served 
as inspector general for the Department of Homeland Security for almost 
4 years, until I retired in November 2017, after over 32 years of 
Government service. In the best of times, DHS is an unruly and 
difficult to manage organization. We are not in the best of times. The 
nature and extent of senior leadership vacancies in the Department is 
cause for concern as such pervasive vacancies significantly hamper the 
Department's ability to carry out its all-important mission.
                       the nature of the problem
    As inspector general, I had the unique opportunity and privilege to 
examine all areas of DHS's programs and operations. Our reviews found, 
even when fully staffed, a Department that was challenged in meeting 
its goals and struggling to mature as an organization. Our reviews 
highlighted significant issues in the Department's operations. These 
shortfalls touch nearly every area of the Department, including:
  <bullet> Acquisition management, including acquisition of major IT 
        systems.--Acquisition management, which is critical to 
        fulfilling all DHS missions, is inherently complex, high-risk, 
        and challenging. Most of DHS's major acquisition programs 
        continue to cost more than expected, take longer to deploy than 
        planned, or deliver less capability than promised.
  <bullet> Personnel management, including employee morale.--DHS is the 
        third-largest Federal agency and its employees serve a variety 
        of missions vital to the security of our Nation. To achieve 
        these missions, DHS must employ and retain people who are well-
        prepared for their work and appropriately supported by their 
        managers. Since its inception, however, DHS has suffered poor 
        employee morale and a dysfunctional work environment.
  <bullet> Grants management, particularly the administration of FEMA 
        grants.--FEMA administers millions of dollars in homeland 
        security preparedness and recovery grants. However, during my 
        tenure as inspector general, we found that FEMA does a fairly 
        poor job of ensuring that the money is not wasted. We believed 
        the cause to be a failure of leadership within and oversight 
        over FEMA, in addition to structural and systemic issues 
        inherent in the program.
  <bullet> Cybersecurity.--Cybersecurity is a serious challenge given 
        the increasing number and sophistication of attacks against our 
        Nation's critical infrastructures and information systems. 
        Failure to secure these assets increases the risk of 
        unauthorized access, manipulation, and misuse of the data they 
        contain. External threats such as hackers, cyber-terrorist 
        groups, and denial of service attacks are of particular 
        concern.
  <bullet> Border security.--Numerous IG reports over time have 
        highlighted significant concerns about the manner in which ICE 
        and CBP manage their border security responsibilities. The 
        concerns have ranged from staffing issues, detainee management, 
        acquisition of the technology necessary to carry out their 
        duties, and management of visa overstays and removals.
  <bullet> Transportation security.--The inspector general's office has 
        noted over time significant challenges and shortfalls in TSA 
        and Coast Guard's ability to secure transportation networks 
        from potential terrorist attack.
                              root causes
    As we were required to do, we sought to understand the root causes 
for the persistent shortfalls we found. These shortfalls persisted over 
time, regardless of administration, and can be fairly attributed to the 
following two root causes:
  <bullet> Unity of Effort.--DHS has demonstrated an inability to mesh 
        divergent components, with different histories, cultures, and 
        missions, into a single agency with a unity of effort. Too 
        often, the components operated as stand-alone entities or, 
        worse, in competition with each other. Knitting together a 
        unified DHS with all components pulling together to protect our 
        homeland security is a top challenge of the Department and 
        requires strong and committed leadership and oversight. This 
        goal is thwarted by the pervasive senior leadership vacancies.
  <bullet> Poor internal controls.--The failures reflected in our audit 
        reports reflect an inability to develop, oversee, and enforce 
        the internal controls typical of a mature organization. The 
        current environment of relatively weak internal controls 
        affects all aspects of the Department's mission, from border 
        protection to immigration enforcement and from protection 
        against terrorist attacks and natural disasters to 
        cybersecurity.
    Part of the problem is a lack of personnel within the Departmental 
leadership offices to focus on and address overarching issues. For 
example, DHS has a vast law enforcement enterprise, which brings with 
it challenges in managing the unique issues associated with that. But 
on issues like use of force and training, DHS simply does not work 
together as a unified organization. DHS does not have a Department-
level office to manage and oversee use of force activities; collect and 
validate data to assess use of force, minimize risks, and take 
corrective actions; and ensure use-of-force policies are updated and 
incorporate lessons learned. Nor has it attempted to integrate various 
component training facilities and programs. Time and again we saw the 
law enforcement agencies operating independently without the necessary 
oversight and no real effort to compel coordination.
    Likewise, given the significant investment in immigration 
enforcement and administration of immigration laws, DHS should pay 
particular attention to the coordination of the programs and operations 
of CBP, ICE, and USCIS. Yet, the Department does not have a designated 
responsible official or Department-level group to address overarching 
issues related to immigration, resolve cross-cutting problems, and 
foster coordination in processing aliens. Increases in the size or 
mission of an agency create risk. Significant growth and expanded 
responsibilities in the immigration enforcement arena further stresses 
an already struggling organization. Strong, permanent leadership, with 
political accountability and political backing, are necessary for 
effectiveness in growing organizations.
                  insufficient staffing and structure
    Simply put, the Secretary's office and the deputy secretary's 
office are simply too thinly staffed to be able to even be aware of, 
much less effectively manage, the significant and varied issues that 
face DHS. In my time as inspector general, through two administrations, 
senior leadership was continually caught by surprise by our findings. 
They simply did not have the staff or the structure to be fully 
informed to conduct effective oversight.
    In 2016, after noting some progress in attempting to ensure a Unity 
of Effort, we noted that progress was largely as a result of ``the 
force of will of a small team within the Department's leadership.'' 
However, we concluded that such an effort was unsustainable in the long 
run, ``[a]bsent structural changes to ensure streamlined oversight, 
communication, responsibility and accountability--changes that must be 
enshrined in law.''\1\
---------------------------------------------------------------------------
    \1\ Major Management and Performance Challenges Facing the 
Department of Homeland Security, https://www.oig.dhs.gov/sites/default/
files/assets/2017/OIG-17-08-Nov16.pdf (November 2016).
---------------------------------------------------------------------------
                    vacancies exacerbate the problem
    In November 2017, in one of my final reports regarding the 
management challenges facing the Department, I wrote:

``The responsibility for proactive leadership . . . falls on the 
Secretary, the Deputy Secretary, the Under Secretary for Management, 
and on the newly created Under Secretary for the Office of Strategy, 
Policy, and Plans. Unfortunately, these positions suffer from the lack 
of permanent, Presidentially appointed and Senate-confirmed officials; 
as a result, there has not been the opportunity or leadership stability 
to implement or reinforce needed reforms.\2\''
---------------------------------------------------------------------------
    \2\ ``Major Management and Performance Challenges Facing the 
Department of Homeland Security'' https://www.oig.dhs.gov/sites/
default/files/assets/2017-11/OIG-18-11-Nov17.pdf (November 2017).

    The situation has become no better with the passage of time. In the 
best of times, this is a difficult Department to manage effectively. 
But vacancies, particularly those that remain vacant for a long time, 
cripple the ability of the Department to move forward.
    Long-standing vacancies hurt the Department in a number of ways.
  <bullet> First, those who hold the position in an acting capacity are 
        simply in a caretaker role and are justifiably hesitant to make 
        decisions that would tie the hands of the individual ultimately 
        appointed to that position. Thus, long-term strategic decision 
        making is deferred until someone is appointed. It is also 
        inherently temporary, since under the Vacancy Reform Act, an 
        official can act in that capacity generally for only 210 days.
  <bullet> Second, a full leadership cadre of Presidentially-appointed, 
        Senate-confirmed officials increases political accountability, 
        particularly as it relates to Congressional oversight. My 
        experience is that the Department responds to Congressional 
        oversight and having politically responsible officials who must 
        justify programs and operations is a key factor in ensuring the 
        Department stays on track.
  <bullet> Third, Presidential appointees are better able to represent 
        the Department's interests in interagency coordination. DHS 
        leadership must continually coordinate and plan with other 
        agencies on matters of homeland security. A Presidential 
        appointment carries a stamp of legitimacy within the Government 
        that is simply not available to those in an acting capacity. 
        Fewer Presidentially-appointed or full-time leaders means that 
        DHS is not as well-equipped to protect its equities in the 
        complex world of interagency relationships.
  <bullet> Finally, full-time political appointees can bring fresh 
        perspectives and energy to a position. They are better able to 
        reflect the administration's policies, and often have a desire 
        to drive specific issues to completion during their tenure.
    DHS now has significant vacancies in leadership positions, 
including Secretary, deputy secretary, under secretary for the office 
of strategy, policy, and plans, under secretary for management, under 
secretary for science and technology, administrator of FEMA, and 
director of ICE. The commissioner of CBP and the administrator of TSA 
are occupying acting roles as Secretary and deputy secretary, which 
will deprive those components of leadership at a critical time. ``Dual-
hatting'' undermines the seriousness of the mission of the agencies 
whose leadership is being plundered. This lack of settled leadership 
contributes to the significant morale problems that are endemic to DHS 
components. For DHS to mature as an organization and address the 
significant root causes of its shortfalls, it must have in place 
dedicated, long-term political leadership.
    I thank the committee again for the invitation to testify. This 
concludes my prepared remarks, and I am happy to answer any questions.

    Chairman Thompson. I thank both witnesses for their 
testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    This is pretty much to both of the witnesses. In your 
experience, what effect does constant change in leadership have 
on morale throughout a department?
    Mr. Dodaro. I think it depends mostly on the actions of the 
people who are in the positions at the time, you know, whether 
acting or not. The optimum is to have a confirmed person in 
place over a sustained period of time. But you know, the way 
our system is structured, you know, fundamentally change is 
inevitable. With any change in administration, you have a whole 
new 3,000 people at the top of the Federal Government that are 
in place.
    Now Congress has set expectations through the Vacancy Act 
that the appointments and an acting basis be on a temporary 
nature, so nobody believes that it should be on an on-going 
basis, but there is constant change at the Federal level across 
the Federal departments and agencies on an on-going basis. Even 
within administrations, the turnover of top political 
leadership occurs and occurs on a fairly frequent basis.
    But this can undermine the sustained effort that is needed 
in order to address long-term management issues. So it is a 
very important question that you are asking. It goes in part to 
individual decisions made by the President and by the Congress, 
but also goes to the nature of the system that we have in place 
that pretty much makes it difficult to sustain efforts across 
administrations.
    I would say that this effort at DHS, some of their efforts 
have at least been sustained from the prior administration into 
this new one. Now, you need to make a lot of improvements, but 
I am pleased that there has been some continuity between 
administrations.
    Chairman Thompson. Mr. Roth.
    Mr. Roth. I think it very much depends on the specific 
component or agency that is involved. Certainly if you have a 
systemic and pervasive morale problem, employees are going to 
look to the leaders for fixing the problem. If that leader is 
in a temporary position, he might be stymied or she may be 
stymied from being able to engage in whatever long-term fix. 
Whether it needs to be pay parity or needs to be training or 
some other issue that requires a long-term systemic fix, it is 
going to be much more difficult for an acting person to do it 
rather than a permanent appointed person.
    Chairman Thompson. Thank you. In April of this year, I 
introduced and Congress passed what is called the MORALE Act. 
It was primarily focused on the fact that in the scheme of 
ranking, DHS was 17 out of 17. In other words, they were at the 
bottom.
    To the extent that having so many acting people in a 
department with a department that is struggling in terms of 
employee morale, how do you fix it with acting people in dual 
roles and already having primary responsibility for another 
agency?
    Employees talk to us, they really want to carry out the 
mission, but with the musical chairs at the leadership, it has 
been a struggle.
    So I will give you a chance to address that.
    Mr. Dodaro. Well, first, I would say we are fortunate that 
we have very dedicated, professional people at the Department 
of Homeland Security who will carry out their job regardless of 
the circumstances. It is much more difficult to get buy-in when 
you have people in acting positions with long-term plans and 
efforts that are under way, because people are historically 
skeptical when the Federal Government--of whether the latest 
effort to make improvements is going to be sustained over a 
period of time.
    So the bureaucracies don't respond well to a lot of change 
quickly over time. It is more difficult with an acting person. 
But I would note that DHS has had morale problems whether there 
have been confirmed people in the positions or acting 
positions. I think there are some structural issues there that 
need to be dealt with.
    I think the legislation, Mr. Chairman, you sponsored is a 
good effort to try to get at some of those problems. The 
problems don't exist across the components in DHS. There are a 
couple components that have more, you know, systemic morale 
issues than other components.
    But it is a difficult issue to address. I think the MORALE 
Act would help. It actually codifies a number of our 
recommendations that have been made.
    Chairman Thompson. Mr. Roth.
    Mr. Roth. That is exactly right. I mean, the MORALE Act, 
for example, has a number of long-term fixes for the morale 
problem. We didn't get to this place overnight, and we are not 
going to get out of it overnight. But again, because it is 
long-term, it is going to be required long-term planning, long-
term budgeting, kinds of things that are impossible to do with 
a series of actings.
    Chairman Thompson. Thank you. Yield to the Ranking Member.
    Mr. Rogers. Thank you, Mr. Chairman. As I talked about in 
my opening statements, since its inception, DHS has struggled 
with the disparate missions and priorities. As you made 
reference in your statement, Mr. Roth, they have a real problem 
with Unity of Effort among the DHS components.
    Mr. Doddard--Dodaro.
    Mr. Dodaro. Dodaro.
    Mr. Rogers. Dodaro. You made reference to this, just the 
fundamental structural problems. What, in your opinion--clearly 
you are two of the leading experts on this--what do we need to 
do about this? This has been a problem since we stood the 
Department up, and it doesn't seem to be getting better. Just 
fundamentally what does this committee need to do to help give 
some stability to the management of the Department?
    Mr. Dodaro. I think, you know, as a sign of the challenge, 
the day that DHS started operations, we designated 
implementation and transformation of the Department as a high-
risk area across the Government. Now we have seen some changes 
over time in some of these agencies, so there has been some 
improvements in having strategic planning and having better 
efforts in place, but there is still a long way from having a 
unified, well-functioning organization.
    You know, part of the problem was--and still remains--is 
that there are weaknesses in some of the 22 components that 
were merged into the Department, so the Department did not 
have, receive, you know, 22 well-functioning units at that 
time. It continues to be a struggle.
    So I think the suggestions that John made in his opening 
statement, Mr. Roth, are very important in terms of having a 
better structure at the top of the Department, was better 
financed and better functions in place.
    I think also--and I have said this for other agencies, 
including the Department of Defense--there needs to be a chief 
management officer position that transcends administrations. 
These efforts to focus on fundamental management weaknesses are 
not going to get solved in a short period of time. In fact 
right now, they are targeting these financial management system 
improvements and not be in effect until 2020 and way beyond 
that effort over time.
    Same thing with morale. It needs sustained attention. So 
you need a management infrastructure. Each President should 
have their ability to put the political leadership in, but you 
need to have a well-resourced continuity management functions 
to integrate them across the Department so that it can be 
responsive to policy changes.
    So I think that is the fundamental change. It needs to 
transcend administrations.
    Mr. Rogers. Does that model exist in any other department?
    Mr. Dodaro. The changes that were made to the IRS, for 
example, the IRS commissioner has a 5-year appointment. The FAA 
has a 5-year appointment. Social Security Administration has a 
5-year appointment. So there are models. We have suggested that 
that be put in place at Defense for--a chief management 
official. The Congress has agreed to have a chief management 
official, but they didn't go as far as I think they need to go 
and have that person span administrations.
    So there is some recognition in certain positions, you need 
more continuity. So you should have a tenured person in there 
for basic management functions. They are not a policy official, 
but they are to make sure that the Department operates 
effectively regardless of what policies are implemented. Right 
now you don't have that.
    Mr. Rogers. You made reference to the fact that the 
Department struggles to mature. I wholeheartedly agree. Aside 
from that management deficiency, what could we do to help it 
mature? Because I have been frustrated by that. It doesn't seem 
to be growing and maturing.
    Mr. Dodaro. Yes. John.
    Mr. Roth. I mean, what we have now in DHS I think is 
basically a holding company for 17 sort-of independent 
components. My experience in both administrations was that I 
would go and I would brief the Secretary and the deputy 
secretary on various findings that we had, and they were 
completely caught by surprise. They didn't have the ability and 
the staff and the structure to get the kind of reporting that 
they needed to be able to look at problems and fix them.
    I think that is a personnel issue, a staffing issue, and a 
structural issue that can be fixed by this Congress. In other 
words, beef up the ability of the Secretary and the deputy, as 
well as the under secretary for management and the under 
secretary for policy plans to--and strategy to be able to have 
true insight into the workings of the various parts of the 
Department.
    Mr. Rogers. Did either of you or your offices draft a 
proposal that would do that and to present to the Congress? Do 
you know if there is something in writing about how that would 
look that we could review?
    Mr. Dodaro. I don't--we don't have anything currently in 
writing, but I would be happy to put some ideas together for 
consideration. In addition to what John is saying, which I 
agree with completely, the other thing Congress can do is to 
have more oversight.
    I know in the beginning in the creation of DHS, the big 
complaint was there was too much Congressional oversight from 
too many different committees, but I think that helped spur 
them to make changes. They didn't like it, and a lot of people 
didn't think it was efficient, but I think it was very helpful.
    Right now for example, the Quadrennial Homeland Security 
Review is late. It is not submitted. You know, Congress 
hasn't--is trying to get more attention to that. The Unity-of-
Effort effort and more--I mean, Congressional oversight can be 
an important catalyst. Any area we end up taking off the high-
risk list, it is in part because the Congress acted, both 
legislatively in providing funding necessary to do that, so I 
wouldn't--you know, there are some structural problems with the 
Department, but without a commensurate active Congress in 
providing oversight, it is still--you know, it won't work. You 
need both components.
    Mr. Rogers. Thank you. Thank you, Mr. Chairman. Yield back.
    Chairman Thompson. Thank you.
    Chair recognizes the gentleman from Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. Thank you for calling 
this extremely important hearing.
    Let me first of all say that I agree with the Ranking 
Member that if any of us are calling for the dismantling of any 
department, it is not serving the Federal employees well and 
probably does not contribute to the kind of morale we all would 
like to have.
    I am saying that because I think it is--what I have said--
it is what I believe--and I believe that no matter who is in 
the White House, one of the problems the public now has with 
Congress is that it is almost dramatic the way we can change 
our positions based on who was in the White House.
    So I think ICE needs to be probably--like many other 
departments, dealt with and improved. But I don't think we shut 
down ICE or anything else in Homeland. I think we need to 
concentrate on fixing it.
    The day we stopped defending things because it is somebody 
in the White House that we happen to be connected with is the 
day that I think we began to move this country forward. I will 
disagree with anybody. I think I am just that tough, whether it 
is me disagreeing with President Obama, which I did publicly 
when he was in office, or President Trump. I hope that my 
children will never see a day when I defend wrong based on who 
is in the White House.
    Now, let me go on. I apologize for my sermonette. But 
nature abhors a vacuum. Do both of you agree? I mean, Aristotle 
said it years ago, but I think it--centuries ago, but I think 
it still is a fact. I think we are seeing it now with Homeland 
Security.
    As the theory goes, there is something that will fill every 
vacuum, and I think right now it is indecision. I am 
particularly concerned because I serve--I wish everybody the 
country had in my district, which is the largest city in the 
State and then 14 of the smallest cities. We are having 
flooding. We have positions that are vacant that need to be--in 
Homeland Security that need to be addressing these issues.
    I mean, we have farmers suffering because of the tariffs, 
soybeans dropped to $8 right now. My farmers are all 
complaining. Then right as they are getting hit with the 
tariffs, they get hit with the Missouri River. We don't--and 
the Governors, Nebraska, Missouri, all have declared, you know, 
emergency, state of emergencies.
    So what can we do? I mean, the slowness--I can't even get 
an answer on the fact that you have to have $8 million in 
damage before--you know, you have this threshold before you can 
get assistance for people in these small towns. You can destroy 
a whole town, like Orrick, Missouri, and not reach the 
threshold.
    I said a lot. Help me, please. Both of you, either or both.
    Mr. Dodaro. There is a couple of things with FEMA I think 
are important and on point to what your program is. First of 
all, the Flood Insurance Program is not actuarially sound. 
Right now, they're over $20 billion in debt to Treasury after 
Congress has already recently forgiven $16 billion in debt. So 
that program, it needs to be better managed. There needs to be 
better mapping. There needs to be better----
    Mr. Cleaver. We need both. We need to forgive--we should 
have forgiven the whole entire debt. I am sorry, go ahead.
    Mr. Dodaro. Well, but--I think the idea was when the 
program was set up is the people who benefited from flood 
insurance were supposed to pay for the program. Right now that 
cost has been transferred to the general taxpayers, and 
everybody is paying for it.
    Mr. Cleaver. Right.
    Mr. Dodaro. So we either ought to say that is the policy 
and we ought to do it, or we should make some other fundamental 
reform changes to that program, because it is not going to be 
ever on a sound fiscal basis to pay for itself over time, 
particularly with some of the weather forecast information.
    Second, more effort needs to be put in to build resilience 
into the communities in the first place. This is where a long-
term strategy comes in place. I commend the Congress for 
passing the Disaster Recovery Reform Act last year, which 
allows some of that money to be used for resilience building 
and also to bring in additional structural changes to flood 
mitigation approaches, elevation standards.
    I was disappointed the administration has revoked the 
Executive Order on a risk--on a flood mitigation strategy. So 
there is a lot of things that could be done. I mean, there are 
some things that need to be done in the short term, as you are 
talking about, but if we don't prepare for the long term in 
this area, we are--the Federal Government is very exposed at a 
time where it is on a long-term unsustainable fiscal path. This 
is going to be a problem.
    So you need effective leadership. But we need long-term 
efforts and planning efforts, particularly in the Homeland 
Security Department and particularly in the area of both 
flooding and also building resilience and in the future.
    Chairman Thompson. Thank you. The gentleman from New York, 
Mr. King, is recognized.
    Mr. King. Thank you, Mr. Chairman. I want to thank the 
witnesses for their testimony. Mr. Dodaro, it is good to see 
you back again.
    I agree with Mr. Cleaver in many respects. We have had 
variations of this hearing over the last 10, 12, 13 years, 
under all Secretaries in all administrations. I believe even 
under Secretary Johnson we had maybe more vacancies we do now, 
and I think he was one of the best Secretaries we ever had. He 
had a good bipartisan relationship. So it is something endemic 
to the Department.
    Now, one concern I do have--I think it is on target for 
today--is that, you know, coming from New York--and I am sure 
Congressman Rose agrees with this--this Department was created 
because of 9/11, because of terrorist attacks, 
counterterrorism. I know that issues from immigration to global 
warming are all important, but going through both of your 
statements, I don't see a word about terrorism.
    Now, does that mean that you feel it is all under control? 
I mean, we have the fusion centers, we have--we have had 
problems administering the grants in the past. I know certainly 
in New York, that has been an issue. As far as a cooperation 
with local and State law enforcement.
    My concern is, are we losing the purpose for which this 
Department was created? I mean, all these other issues are 
important, and I realize that by incorporating different 
departments in, you also assume those responsibilities. But the 
ultimate responsibility was to fight terrorism.
    I never want to go through another 9/11 and say, oh, well, 
we missed that attack because we were talking about global 
warming that day. I mean to me, I want to make sure that ISIS 
and al-Qaeda, white supremacists, whoever we are talking about 
is not able to launch a terrorist attack.
    Do you believe the Department right now is doing enough, 
whether it is acting or permanent or whatever, are they doing 
enough to combat terrorism and to prevent another 9/11? It is 
the both of you.
    Mr. Roth. I mean, certainly, for example, transportation 
security, both I think the GAO and the inspector general's 
office, has done a lot of work in examining sort-of what the 
shortfalls are with transportation security, which continues to 
be sort of the bright, shiny trophy of any sort of domestic 
international terrorist attack.
    So I think the focus has been there. But then when you look 
at transportation security, what are you looking at? You are 
looking at the ability of TSA for example to make the kinds of 
acquisitions that will actually pay dividends in keeping us 
safe, looking at how it is that we hire and screen 
transportation security officers.
    So it all comes back to fundamentals, fundamentals about 
how it is that we budget, how it is that we plan, how it is 
that we hire, and how it is that we train our folks. So while 
it is a multi-mission agency, certainly terrorism is always at 
the forefront. I can tell you that, just from my experience 
from working within the Department.
    But again, the ability to combat terrorism is only as 
effective as the ability of DHS to function as an organization.
    Mr. Dodaro. John mentioned, we focus a lot on their 
terrorism-related responsibilities. We have a lot of 
recommendations in the Transportation Security Administration. 
We look at border security, I got recommendations there, as 
well, protecting the chemical plants that we have in the 
country and the CFATS program, we have had a lot of 
recommendations in that area. The transportation worker 
identification cards, never been evaluated for effectiveness. 
We have got recommendations in that area, as well.
    But I also, you know, believe we have been spending a lot 
of time also focusing in on what potential attacks could come 
in the future, you know, as opposed to--we have reacted to the 
way people have exploited us in the past, but we also need to 
prepare for the future. I think cybersecurity is a critical 
component of that.
    So we spend a lot of time and effort on not only DHS's 
role, but the Government-wide strategy. You know, there are 
four areas--I think we don't have a comprehensive National and 
global strategy to deal with supply chain issues, cyber work 
force issues, and other issues. Departments and agencies still 
have weaknesses across the board----
    Mr. King. My time is running out. I hate to interrupt.
    Mr. Dodaro. Yes. OK, sure.
    Mr. King. My time is running out. How about the grant 
system to the local police? Police and fire departments?
    Mr. Dodaro. Yes, we have had recommendations in the grants 
area, as well, to determine the effectiveness, the coordination 
approach to make sure that they are not duplicating efforts in 
the grant areas, as well. We have made recommendations in those 
areas. There are things that can be improved in those areas.
    Mr. King. I guess it bothered me. We are 45 minutes into 
the meeting, into the hearing before we mentioned terrorism.
    Mr. Dodaro. Right.
    Mr. King. When this started, that is all we were talking 
about, was terrorism. I just don't want to--I realize there are 
other issues, but I just don't want to get sidetracked from 
that.
    Also, I have to respectfully disagree with one thing you 
said about having the multitude of committees watching Homeland 
Security. You also mentioned the Chemical Plant Act. In fact, 
the Chairman was on the on the committee--Mr. Rogers was, 
also--it took us almost a year-and-a-half to get chemical plant 
security legislation through because of all the departments had 
to go through. Various special interests and other committees 
are holding it up for this reason or that reason. In the mean 
time, we could have had a catastrophe here in the country.
    I think right now the chemical plant security is done 
pretty well. But again, what we had to go through to get that 
done--and maybe I am being selfish here--I don't think the 
other committees added much to it, other than to obstruct it. 
During all that time, we were afraid there could have been a 
chemical plant attack here in this country.
    So I will just leave it at that.
    Mr. Dodaro. Yes, well, I didn't mean to imply there 
couldn't be some streamlining of efforts. But I don't think--
you know, the answer isn't no Congressional oversight.
    Mr. King. Again, I thank you for your work over the years. 
It has been a privilege working with you, so thank you. Thank 
you.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentlelady from New York, Ms. 
Clarke.
    Mr. Clarke. Thank you, Mr. Chairman, for convening today's 
hearing. I also want to thank our witnesses, Comptroller 
General Dodaro and Mr. Roth, for joining us.
    I have to slightly disagree with the false equivalency of 
the DHS vacancies expressed by a few of my colleagues here this 
morning. Donald Trump, I believe, has created a leadership void 
at the Department of Homeland Security, and he has done so 
intentionally.
    During a February interview, he said, I like actings 
because I can move so quickly, it gives me more flexibility. 
These are his own words. When Superstorm Sandy devastated my 
district, we turned to FEMA, but right now the top post at FEMA 
is vacant. Our Nation faces unprecedented cyber threats, as 
well as all-too-real possibilities of terrorism, but the top 
posts at DHS's Management, Science, and Technology and Strategy 
Directorates are also empty.
    The top official at TSA, our first line of defense against 
another 9/11, simultaneously serves as the entire agency's 
acting deputy secretary. Neither of those positions should be a 
part-time job.
    Meanwhile, as Donald Trump pursues and implements policies 
which many believe undermine the rule of law, such as family 
separation, we do not have a confirmed DHS inspector general to 
investigate those abuses.
    So I am going to turn to you, Mr. Roth, but I did want to 
put that on the record, because there is a false equivalency, 
and I don't want that to be put out there into the public. The 
President has said it himself.
    Mr. Roth, around the time of your retirement at DHS as DHS 
inspector general, you wrote a letter to Congress regarding 
your Department's failure to timely release the full version of 
a report on possible misconduct during the implementation of 
the President's Muslim ban.
    In fact, you said, this is the first time in my tenure as 
inspector general that the Department has indicated that they 
may assert this privilege in connection with one of our reports 
or consider preventing the release of a report on that basis. 
In fact, we regularly have published dozens of reports that 
delve into the Department's rationale for specific policies and 
decisions and comment on the basis and process on which these 
decisions were made.
    Could you elaborate on how the Department sought to 
interfere in the release of the Muslim ban report? Do you 
believe political appointees at the Department or at the White 
House itself sought to improperly withhold the work of the 
inspector general's office from Congress?
    Mr. Roth. Thank you for your question. The report that you 
refer to, obviously, is the report with regard to the so-called 
Muslim ban or the travel ban that we investigated and did an 
assessment of, which was the typical kind of work that we would 
do over time.
    Typically, the only privilege that the Department has ever 
invoked is the attorney-client privilege, which we have 
universally respected in the course of our work, because of the 
nature of the attorney-client privilege and the importance that 
it has of ensuring that senior leadership gets unvarnished 
legal advice.
    But for this report, a new privilege was interjected, which 
is the deliberative process privilege, which is a common law 
privilege that is typically done in civil litigation. This is 
the first time that we had ever seen this. I polled some of my 
other inspectors general in other agencies and they had never 
seen the ability or the use of this deliberative process in our 
reports, because most of our reports are, in fact, deliberative 
process.
    What we examine is the ability or how it is that the 
Department makes decisions, gets to a specific policy, and 
implements that. So it is the core of what we do.
    Mr. Clarke. So in your humble estimation, do you believe 
that that was an attempt to block the ability for that report 
to be examined by Congress?
    Mr. Roth. Certainly the report with redactions is 
considerably less than the report without the redactions. I 
think there was some very important information that was 
redacted from that report, again, in an unprecedented manner. 
So I was not still at the post when the final redactions were 
made, but certainly reading it, there is a lot that is missing.
    Mr. Clarke. Thank you very much, Mr. Chairman. I yield 
back.
    Chairman Thompson. Thank you very much.
    Chair now recognize the gentleman from New York, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman, and thank you for 
convening this most important hearing.
    I agree with the general premise that acting is not as good 
as having someone in place. I think we can all agree on that. 
But I want to just touch real quickly on something Mr. Dodaro 
said, because being lost in all this are all the great people 
that dedicate their lives to trying to keep our country safe.
    I think--and he mentioned the fine and dedicated people of 
homeland security. Couldn't possibly agree more. The best 
example of that was during the Government shutdown, you had the 
TSOs at airports throughout his country working for free. These 
people are not rich. They don't have a lot of money, and they 
still sucked it up and did the right thing and kept us safe. 
That is perhaps the best example of the American spirit alive 
and well at Homeland Security.
    But nevertheless, the problems at Homeland Security have 
been pervasive, and it crosses administrations. I think at one 
point in the Obama administration, there was 18 leadership 
offices with unconfirmed or unappointed leaders. There are 17 
today. During the Obama administration at one point, there were 
10 Senate-confirmable positions that were led by unconfirmed 
individuals. Today there are 8.
    At the height of the Obama administration, the employee 
satisfaction score was 56 percent. It is 60 now. Pretty much 
even. It is pretty much how it has been throughout the 
administrations. But the notion that acting is going to be 
better, I don't think it is.
    I will note this. Mrs. Watson Coleman and myself were Chair 
and Ranking Member for TSA for several years, and we did an 
awful lot of oversight. There is no substitute for us doing our 
job and having hearings and bringing people before us and 
holding them accountable.
    When you do that, you hear things. Here are some of the 
things that Mrs. Watson Coleman and I came up with, one of 
which was a 5-year appointment for the TSA administrator, 
critically important. I think those--to your point, having 
the--going across just 5-year terms, giving some sense of 
permanency to some people in key positions at these agencies is 
very important.
    Both sides are going to slow down appointments in the 
Senate. That is a political beast, and we don't have any 
control over that. But it is something that neither side should 
do for the good of the country in my mind.
    But I want to get back to one thing. Mr. Roth, I want to 
give you an opportunity to talk about this a second. Homeland 
Security perhaps has the most disjointed oversight of any 
agency in Congress. We are spread across I think 6 different--
Mr. Rogers, at least 6 different committees?
    Mr. Rogers. Standing committees, over 100 subcommittees.
    Mr. Katko. Standing committees. Over 100 when you include 
subcommittees, but over 6 standing committees. That is insane 
to me. I think it hampers our effort to deal with what Mrs. 
Watson Coleman and I did with TSA. I dare say, we made that a 
better agency.
    So what are your thoughts on the multi jurisdictions of the 
committees?
    Mr. Roth. I agree. I had the opportunity earlier in my 
career to work on the 9/11 Commission as a staff member, 
looking at terrorist financing. I know from first-hand one of 
the discussions of the commission was to make more streamlined 
and more rational, and that was in fact one of the 
recommendations of the committee, is to do, in fact, that. But 
here we are a number of years later and that still has not been 
accomplished.
    But I agree, the diffracted nature of the oversight is, I 
think, distracting. But I will echo Mr. Dodaro's comments that 
oversight works. I have seen it first-hand. Letters get 
answered. Things get done in preparations for hearings that 
would not otherwise happen.
    So even to the extent that it is fragmented, I compliment 
this committee on the sort of sustained focus, and you for 
example and Mrs. Watson Coleman, where I have testified a 
number of times on TSA issues, it truly works.
    So, notwithstanding the fragmentation, we should continue 
on.
    Mr. Katko. Yes. Mr. Dodaro, do want to add anything to 
that?
    Mr. Dodaro. I think it is always possible to make 
improvements and to make streamlining efforts there. You know, 
but it is up to the Congress to decide on how to do that. It is 
obviously easier to respond to those things if you have a well-
functioning organization in place to be able to be prepared.
    But, you know, the philosophy I have always, it is up to 
Congress to decide how it wants to organize. It is up to DHS to 
make their management better. A lot of it is not dependent on 
how Congress was organized. Some of it is, as John--Mr. Roth 
has pointed out, but I think that oversight is essential in 
this area.
    I know when agencies have to prepare, as John was saying, 
for a hearing, there are things that get done--we get access to 
more information, too, in a timely manner, and both the GAO and 
the IG if there are hearings, that the Congress is going to 
have.
    Mr. Katko. And----
    Mr. Dodaro. It doesn't always have to be hearings. It could 
be exchange of letters and other things.
    Mr. Katko. Well, I am out of time, but I would like just 
like to ask if someone else will pick up on this and that is, 
going forward, I just want to know what else we can do to 
streamline these processes and make these agencies work better.
    But having a sense of permanency in leadership to me is 
absolutely critical. I encourage both sides to encourage the 
Senate to get these--you know, either thumbs up or thumbs down 
on these positions quicker so that we can fill these voids.
    But leading as an acting is not going to cut the mustard 
going forward.
    Mr. Dodaro. No. I agree completely with what you are 
saying. Part of this issue occurs with other agencies, as well. 
You know, I mentioned Department of Defense.
    I think, you know, one of the main reasons that we don't 
have this conversation as much with them is you have a military 
that stays in place regardless of who is in administration, has 
its own structure, has permanent leadership, it has good 
succession planning.
    But if you look on a civilian side at DOD, you have a lot 
of the same problems that you have at Homeland Security. I can 
point to other agencies across the Government, as well.
    Mr. Katko. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. Speaking of oversight, the 
Chair and Ranking Member of the House and the Chair and Ranking 
Member of the Senate, we sent to the Secretary of letter 
asking, when would the Quadrennial Homeland Review committee 
report would be submitted? It is over a year overdue. We have 
yet since March 28 letter, it hadn't even been acknowledged.
    So that--sometimes letters get responded to and sometimes 
they don't. But this is part of what we have to do from an 
oversight perspective to try to get things done. We will 
continue to do that.
    Chair now recognizes the gentlelady from California, Ms. 
Barragan.
    Ms. Barragan. Thank you, Mr. Chairman.
    Since Mr. Katko asked for some follow-up, I am actually 
going to do that. I want to read just some of the--I want to 
read all of the vacancies we have. U.S. Customs and Border 
Protection, vacant. Federal Emergency Management Agency, 
vacant. U.S. Immigration and Customs Enforcement, vacant. The 
U.S. Secret Service, vacant. The Office of Operations 
Coordination, vacant. Privacy Office, vacant.
    Management Directorate, vacant. Chief Financial Officer, 
vacant. Science and Technology, vacant. Office of Strategy 
Policy and Plans, vacant. Office of Public Affairs, vacant. 
Office of Inspector General, vacant. The Secretary, vacant. As 
was mentioned, the deputy secretary, who simultaneously holds 
the Transportation Security Administration position.
    I mean, this is a lot of vacancies. What was--as was 
mentioned at the outset, only I believe 4 have been nominated. 
The Senate is in control right now of the Republican Party. 
Unlike when Obama was President, and he actually nominated 
people, and the Senate went out of their way to block his 
nominations, we have a President now who is deliberately not 
filling vacancies. Either that or people don't want to work for 
him. It is one of the two.
    When you have a history of a President taking out people 
who don't agree with this policies, I don't blame people for 
not wanting to work there, but this is part of the 
mismanagement. To try to equivalent the prior administration to 
this one is completely unacceptable. It is totally wrong to do.
    Just wanted to clarify that for the record.
    Mr. Dodaro, this week, the House is going to vote on H.R. 
9. It is the Climate Action Now Act. I am a firm believer that 
climate change is a National security crisis. Your report as 
comptroller general at GAO as well as your testimony here today 
highlights the risk posed by climate change to our homeland 
security.
    Now, FEMA has no permanent leader right now. We know that 
hurricane season is around the corner. Weather events are 
getting more extreme even in Coastal California, where my 
district is. How dangerous is it for FEMA to operate without 
stable leadership?
    Mr. Dodaro. Well, I think in the short run--I mean, there 
is an acting person in charge of there who was, I believe, the 
deputy beforehand. We saw, though, in the 2017 hurricanes how 
FEMA could be stretched by multiple disasters, so--and we have 
had a lot recommendations about that, about how they could have 
better contracting in place.
    So I think FEMA needs to aggressively provide more effort 
on its contracting and staffing efforts and its ability to deal 
with not only one disaster, but multiple disasters over time. 
We have made a lot of recommendations in that area.
    So I think, you know, FEMA has spent a lot of effort trying 
to improve itself, but I think the current environment in which 
it is going to be operating with more frequent, more intensive 
storms, predicted by the National Climate Assessment, is going 
to stretch its capabilities. So I think it is operating on a 
margin that I think can go either way, depending upon how many 
disasters occur at any one particular point in time.
    I think if it is a single disaster, your odds are better. 
If it is multiple ones, your odds are lower.
    Ms. Barragan. Right. Mr. Roth, how long were you at the 
Department of Homeland Security?
    Mr. Roth. About 46 months.
    Ms. Barragan. Forty-six months?
    Mr. Roth. Yes.
    Ms. Barragan. You mentioned briefly and you touched on 
this, as inspector general at DHS, you were tasked with the 
mission of providing independent oversight and promote 
excellence, integrity, and accountability within DHS. As part 
of that mission, you conducted the detailed investigation and 
produced reports for Members of Congress.
    In 2017, you investigated the President's travel ban and 
produced an 87-page report summarizing your findings, which was 
submitted to DHS leadership. Is that the report you briefly 
mentioned a moment ago?
    Mr. Roth. Yes. To be clear, we were reviewing DHS programs 
and operations, not the White House's.
    Ms. Barragan. Was part of that to over--to investigate the 
Muslim ban?
    Mr. Roth. It was to determine how well DHS reacted and 
implemented the President's policies.
    Ms. Barragan. That report was redacted, is that right?
    Mr. Roth. That is correct.
    Ms. Barragan. Did your experience with that report lead to 
your decision to retire?
    Mr. Roth. No, it did not.
    Ms. Barragan. OK. All right. Thank you, I yield back.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman. Thank you to both of 
our panel witnesses for being here today.
    I would like to start with the Comptroller General Dodaro 
with a few questions, if I might. I believe, if I am correct in 
this, in your testimony, you mentioned the 8 acting officials 
serving in Senate-confirmed positions. How does that compare to 
other periods of time in the Department's history? Would you 
address that?
    Mr. Dodaro. We haven't gone back and made that exact 
comparison over time, but there have been, you know, acting 
positions as has been referred to today in prior 
administrations. You have normal turnover that occurs with any 
administration. So I don't have the exact comparison.
    Mr. Walker. OK. Without exact comparisons, maybe we could 
speak just a second in a general terminology. Is this far 
outside the bounds of anything that you have ever seen?
    Mr. Dodaro. I would say it is in the upper areas of 
concern.
    Mr. Walker. OK.
    Mr. Dodaro. You know, I have been at GAO for 46 years, so I 
have seen a lot of things.
    Mr. Walker. I would imagine. I would imagine. Previous GAO 
studies in 2012 and 2013 have noted the historical issues of 
vacancies in DHS's senior executive service positions. In your 
opinion, what might be the root cause of that? Maybe if you 
would add to that, how would we address it?
    Mr. Dodaro. In terms of the vacancies in the positions?
    Mr. Walker. Yes, correct. What is your opinion of why there 
has been vacancies in that position? How do we address it?
    Mr. Dodaro. Yes, well, I think, No. 1, it needs to be a 
Department priority. They need to focus on this issue. I think 
that there needs to be attention and inquiries at the White 
House in the Presidential personnel process in terms of how 
they are going about identifying candidates for those 
positions.
    It has to be a priority. There has to be an effort to focus 
on it. I think Congress has a role to inquire about how that 
process is going and when their intention is to fill these 
positions over a period of time.
    Right now, you have about 4 or 5 nominations pending before 
the Congress for the FEMA director, the chief financial 
officer, the inspector general officer. So obviously they are 
working to try to identify people to nominate them. That's 
occurred.
    But then these other vacancies are relatively recent, some 
of them. But I think it is Congress's obligation and duty to 
inquire.
    Mr. Walker. Sure. Well, in this current administration, the 
position of under secretary for intelligence and analysis was 
vacant for 7 months, according to our record, with an acting 
under secretary awaiting confirmation for the last 5 months.
    In December 2013, when this committee held a similar 
hearing on vacancies, the position of the under secretary for 
intelligence and analysis was vacant for over a year. With the 
unique mandate this office has within the intelligence 
community, as the Federal Government lead for sharing 
information and intelligence with most--with all, really, 
State, local, Tribal, and territorial governments, and the 
private sector, how do you think our intelligence capability is 
impacted by a vacancy, specifically at this position?
    Mr. Dodaro. I think it is worrisome. I think in that area 
you need to have a stable leadership. You are dealing with a 
number of entities across the Federal Government. You know, Mr. 
Roth mentioned this before, but when you are in a position like 
a FEMA director where you are dealing with elected State and 
local officials, but in intelligence area, you are dealing with 
the intelligence community, about 16 different operations, and 
other things, I think it is better to have a confirmed position 
or person in that job.
    Mr. Walker. I did see the Honorable Roth, the former 
inspector general, Department of Homeland Security, nodding in 
agreement there on a couple things there, so let me pivot to 
you, Mr. Roth, if I could. In your time as the IG, did you 
witness any impact on homeland security and National security 
of having senior leadership vacancies filled by acting 
positions?
    Mr. Roth. In my tenure, I was one of the people on a wave 
of appointments, so actually when I was appointed, pretty much 
everyone had vacant--there were no vacancies. We had a 
Secretary, deputy secretary, had a vice, et cetera, et cetera, 
so I didn't personally witness that obviously until the change 
of administration, which of course is natural to have those 
vacancies then.
    Mr. Walker. OK. Thank you. Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    Chair now recognizes the gentlelady from New Jersey, Mrs. 
Watson Coleman.
    Mrs. Watson Coleman. Thank you. Thank you for holding this 
very important hearing.
    I want to put something in context. Context is important. 
As Mr. Mueller informed us yesterday, I want to put something 
here in context. We talk about the vacancies that have existed 
from time to time through other administrations, particularly 
the Obama administration, as it relates to DHS, but we failed 
to realize that in this administration Republicans were in 
charge of the presidency, the U.S. Senate, and the U.S. House 
of Representatives, and could have had as many people anywhere 
they wanted them when they wanted them and where they wanted 
them.
    But for this fact, that on April 4, 2019, this President, 
President Donald Trump, said, frankly, there is only one person 
who is running DHS. Do you know who that is? It is me.
    So the responsibility for the insufficiency of staff and 
leadership and direction and mission and commitment at DHS lays 
right at his feet.
    I want to ask a couple of questions about the impact of 
some of these vacancies. I have had a lot of conversations with 
Mr. Pekoske. He is really presented himself as a very 
competent, caring, and comprehensive TSA administrator.
    What impact does it have on getting TSA where it needs to 
be and where we thought we were moving in the right direction 
by having him also simultaneously hold the position of deputy--
what is it, deputy secretary? Exactly how does that impact this 
organization? That is No. 1.
    No. 2, we have a list of 25 or so top positions that report 
to one person. Of those, there are 13 vacancies with one person 
doubling up Mr. Pekoske. This is the leadership of these 
various components. We have no idea here today, Mr. Chairman, 
how many people who work in those components have vacancies.
    So we don't really know how stripped this particular 
Department is. It is very concerning to me because other than 
building a wall and castigating the people coming in from the 
south, I don't know whatever else this doggone Department is 
doing. I need to know, so you need to tell me, how lean is this 
organization? How difficult is it for it to get any of its 
important things done other than trying to build a wall and 
protect the Southern Border?
    So I would, first, you know--would love to hear from you, 
Mr. Dodaro, and then from you, Mr. Roth. I did not know that 
you had retired. I am sorry that you retired. I think the 
Department is sorry that you retired, and it is a sorry 
situation that we have been acting inspector general. But I 
think we are in a sorry and crisis situation.
    So I am going to give you the last 1.39 seconds of my time 
to answer those questions and recognize how absolutely 
frustrated I am.
    Mr. Roth. I see that.
    [Laughter.]
    Mr. Roth. I would say, with regard to the TSA issue, they 
have designated somebody to be in charge of the program, so I 
don't think there is an intent that they are going to be 
double-hatted. I think the effect on TSA is somewhat mitigated 
because the current administrator that is confirmed is staying 
within the Department, so that mitigates it a little bit as 
opposed to leaving later, and we will have to see how well they 
function. And the----
    Mrs. Watson Coleman. But that truly was a full-time job for 
him.
    Mr. Dodaro. Oh, of course. Of course. The deputy will be a 
full-time job for him, as well, but at least he will still be 
in the Department to provide oversight and direction and they 
have somebody designated, so we will have to see how they 
perform. It is not the ideal situation. It is not the ideal 
situation in that area.
    Now, with regard to how deep the vacancies go, there are, 
according to information we got from the Department, about 84 
positions at the assistant deputy secretary level and above and 
about 32 percent of those are vacant at this point in time. 
They don't have a confirmed--now, they have--most of them have 
acting people in them, so they are not--it is not like there is 
nobody home, but--so that tells you--you know, gives you a 
pretty good picture overall.
    I will yield my 8 seconds to John.
    Mrs. Watson Coleman. So we may have people in those 
positions, but they are temporary residents, and I doubt that 
they have----
    Mr. Roth. I mean, TSA is a great example of what happens if 
you have, like, high-quality leadership over time. TSA has 
benefited from two very, very good administrators back-to-back. 
I think it's made an enormous difference in transportation 
safety.
    So leadership matters. Permanent leadership matters. High-
quality leadership matters. So that is my takeaway from TSA. 
But with regard to, for example, the deputy secretary being 
vacant since Elaine Duke left over a year ago, that is 
extraordinarily troubling to me. That is the chief operating 
officer who is responsible for long-term planning, budgeting, 
coordination, interagency coordination. So not having somebody 
in that position I think is especially troubling.
    Mrs. Watson Coleman. Thank you. Thank you, Mr. Chairman, I 
yield back because I have no time left.
    Chairman Thompson. Thank you very much.
    Chair now recognizes the gentleman from Louisiana, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. Thank you, gentlemen, 
for appearing today.
    I wish my colleague, Ms. Barragan, was still here. I am 
going to state some vacancies, as well.
    The Secretary, deputy secretary, chief of staff, under 
secretary for management, chief financial officer, commissioner 
of Customs and Border Protection, director of ICE, under 
secretary for intelligence and analysis, under secretary for 
science and technology, under secretary for National protection 
and programs direction, assistant secretary for cybersecurity 
and communication, director, Office of Biometric Identity 
Management, inspector general, assistant secretary for health 
affairs, the chief medical officer, assistant secretary for 
private sector, assistant secretary for legislative affairs, 
assistant secretary for State and local law enforcement, and 
assistant secretary for policy implementation and integration.
    But welcome to the 116th Congress, gentlemen, where 
everything seems to be designed to attack a President, because 
these were vacancies in 2013. Yet all but two of those 
positions I just named, which is the case now, are filled by 
highly qualified American citizen that has been placed in that 
position. That is the nature of chain of command, as in chain 
of command is an efficient flow of authority and rank, either 
the military or law enforcement.
    The authority automatically shifts, including without 
executive or administrative command. In the field this happens. 
If there is an absence in chain of command, it is immediately 
filled by that ranking American.
    I believe it is a failure of this Congress when we 
politicize these things rather than seeking actual answers. The 
President, been pointed out that the buck stops with him. He is 
a leader. He leads from the front. All the Members here support 
comprehensive reauthorization, gentlemen, many of the things 
that we have discussed today it occurs to me.
    Do you support--both of you gentlemen please respond to 
this question--comprehensive reauthorization of DHS, with 
centralized command and control, with focused Congressional 
oversight responsibility through more streamlined and limited 
committee jurisdiction?
    Mr. Dodaro. I think in terms of, you know, comprehensive 
reauthorization of the Department, to codify the Unity of 
Effort, I think is what you said----
    Mr. Higgins. Yes, sir.
    Mr. Dodaro [continuing]. And to ensure that we have got 
effective people in place to carry out those responsibilities, 
I agree with that. I would yield to Congress to decide how it 
decides to best organize itself.
    Mr. Higgins. Well, that would be within the parameters of 
the Constitution, so I appreciate you yielding that. Mr. Roth.
    Mr. Roth. I was consulted during the authorization writing, 
and we think it is codifying many of the best practices that 
DHS has and the sort of imprimatur of Congress making it 
legislatively mandated as opposed to a simple internal control 
by the Department, I think is a positive step forward.
    Mr. Higgins. Thank you. In the interest of time, in my 
remaining time, thank you for what I am hearing is that you 
essentially support what I believe is a bipartisan interest of 
this committee. It is the kind of thing we should be focused on 
as opposed to posturing for 2020.
    I am concerned about technology. All of DHS agencies need 
new technology, but it seems to me that research and 
development is scattered and unorganized. In my remaining 
minute, I would like you each to take 30 seconds, please, and 
respond to that. How can we fix that? Research and development 
is quite disorganized within DHS.
    Mr. Dodaro. Yes, I mean, I believe we have issued some 
reports on that, and I will provide them to the committee along 
with our recommendations.
    Mr. Higgins. Thank you, sir, for that clarification. We can 
expect that within a timely basis?
    Mr. Dodaro. You will have it by this afternoon.
    Mr. Higgins. Wow, that is very timely.
    Mr. Roth. Yes, I would agree that, you know, part of the 
issue with regard to information technology and technology in 
general is a lack of a strategic plan and a lack of oversight 
to sort of drive that into a productive way.
    So, again, some of the issues that we have been talking 
about, the inability of the deputy secretary and the Secretary 
to actually understand what is going within the components is a 
critical part of moving forward.
    Mr. Higgins. Thank you for your clarification, sir. Mr. 
Chairman, I yield.
    Chairman Thompson. Thank you very much.
    Chair recognizes the gentleman from New York, Mr. Rose.
    Mr. Rose. Thank you, Chairman. I do just want to start by 
reiterating my support for what my friend and colleague Peter 
King said, that there--I am nervous--and I haven't received 
enough information today to quell that nervousness--that we are 
losing our focus on terrorism, that that was the roots and 
origins of this Department, and we should go back to that 
focus.
    I appreciate us--I am asking these questions, if you could 
integrate if you have any comments on that into your answers. 
You both mentioned two things that I found alarming. The first 
is, is that this Department in--when you boil it down is a 
holding company for 17 different organizations. Then you also 
mentioned, and we have also commented on it, the incredible 
overlapping jurisdiction. If you were designing committee 
jurisdiction, the last way in which you would ever design it is 
the way it exists right now as it pertains to this Department 
in question.
    So my question for both of you is, what are your ideas for 
how we can simplify this, both the Department structure as well 
as committee jurisdiction?
    Mr. Roth. Well, certainly, with the Department structure, 
having a more fulsome staff for the Secretary and the deputy 
secretary, the under secretary for management, and the under 
secretary for policy and planning is extraordinarily important, 
because what I saw during my tenure as inspector general is the 
senior leadership continually sort-of back on their heels and 
surprised by activities within their own components that they 
were unaware of.
    So this idea of being able to have internal controls and 
derive those internal controls from the senior leadership is 
very, very important.
    Mr. Rose. Do you recommend the merger of any organizations?
    Mr. Roth. I do not, no.
    Mr. Rose. OK.
    Mr. Dodaro. I agree with John on that. I think it is 
important to recognize, too, that a lot of departments and 
agencies of the Federal Government are holding companies, 
whether you are talking about the Agriculture Department, the 
Commerce Department, the Treasury Department, where you have 
IRS as a component within it, but there you have agencies that 
have been in place a longer period of time. They have a lot 
more of continuity in terms of the positions and they are more 
mature organizations. I think you could strengthen the central 
management functions.
    I think it is also important to recognize if these agencies 
weren't within DHS, they would have to coordinate across 
departments and agencies. We have many, many recommendations of 
where that is a problem across Government, as well, because 
departments aren't coordinating as much across the agencies 
that they need to deal with. More and more problems require 
cooperation among different components of the Federal 
Government.
    So I think it is better within the Department than outside 
the Department, but you need to strengthen the structure within 
the Department. You know, otherwise you could create other 
problems that I think would be perhaps more daunting.
    Mr. Rose. If you could just paint me a picture during both 
of your respective tenures at the Department, were there highs 
and lows for when terrorism was considered as the priority, in 
terms of your daily life?
    Mr. Dodaro. Oh, yes, sure.
    Mr. Rose. Could you tell me what those--how would that 
look?
    Mr. Dodaro. Well, I think right after 9/11, that was the 
focus.
    Mr. Rose. Yes.
    Mr. Dodaro. That was the focus, getting TSA up and running 
and organized, and have operating procedures in place. I think 
that was the main focus until 2005, 2006, when Hurricane 
Katrina and Rita hit.
    Mr. Rose. Sure.
    Mr. Dodaro. FEMA wasn't prepared. We had a lot of 
disasters. So that--the lesson from that is that all missions 
of the Department are important.
    Mr. Rose. Absolutely.
    Mr. Dodaro. They need to keep their eye on the ball, 
whether it is terrorism, emergency preparedness, cyber issues, 
and other issues. I--so I think it is important that all the 
missions get equal treatment and attention over time. Otherwise 
you are going to have a problem.
    Mr. Rose. OK. Last question. Travel ban, which is I know 
something--I know it is not immediately in our purview today, 
but it is a very simple question. When the travel ban was 
announced, what was also announced concurrently was that a 
review process would be undertaken. Many elected officials at 
the time were calling it a travel pause, not a travel ban.
    To your knowledge, what was undertaken, what is still going 
on as it pertains to this review of the deficiencies in our 
system that led to the travel ban?
    Mr. Dodaro. Yes. I don't have information to respond to 
that now. I will provide something for the record.
    Mr. Rose. Please.
    [The information follows:]
                     response from eugene l. dodaro
    In August 2018, we reported that, in accordance with Executive 
Order 13780 (EO-2), the Department of Homeland Security (DHS) conducted 
a world-wide review, in consultation with the Department of State 
(State) and the Office of the Director for National Intelligence 
(ODNI), to identify additional information needed from foreign 
countries to determine that an individual is not a security or public-
safety threat when adjudicating an application for a visa, admission, 
or other immigration benefit.\1\ According to State officials, an 
interagency working group composed of State, DHS, ODNI, and National 
Security Council staff was formed to conduct the review. To conduct 
this review, DHS developed a set of criteria for information sharing in 
support of immigration screening and vetting, as we discussed in our 
report.\2\ For example, the criteria required that countries regularly 
report lost and stolen passports to INTERPOL, make available 
information on individuals it knows or has reasonable grounds to 
believe are terrorists, and provide criminal history record information 
to the United States on its nationals who are seeking U.S. visas or 
other immigration benefits. According to DHS officials, to develop 
these criteria, DHS, in coordination with other agencies, identified 
current standards and best practices for information collection and 
sharing under various categories of visas to create a core list of 
information needed from foreign governments in the visa adjudication 
process. For example, State sent an information request to all U.S. 
posts overseas requesting information on host nations' information-
sharing practices, according to State officials.
---------------------------------------------------------------------------
    \1\ GAO, Nonimmigrant Visas: Outcomes of Applications and Changes 
in Response to 2017 Executive Actions, GAO-18-608 (Washington, DC: Aug. 
7, 2018). The President issued Executive Order 13769, Protecting the 
Nation from Foreign Terrorist Entry Into the United States (EO-1), in 
January 2017. Exec. Order No. 13769, 82 Fed. Reg. 8977 (Feb. 1, 2017) 
(issued Jan. 27) (EO-1). In March 2017, the President revoked and 
replaced EO-1 with the issuance of Executive Order 13780 (EO-2), which 
had the same title as EO-1. Exec. Order No. 13780, 82 Fed. Reg. 13,209 
(Mar. 9, 2017) (issued Mar. 6) (EO-2).
    \2\ For a list of these criteria, see table 6 in GAO-18-608.
---------------------------------------------------------------------------
    To assess the extent to which countries were meeting the newly-
established criteria, we reported that DHS officials stated that they 
used various information sources to preliminarily develop a list of 
countries that were or were not meeting the standards for adequate 
information sharing. For example, DHS officials stated that they 
reviewed information from INTERPOL on a country's frequency of 
reporting lost and stolen passport information, consulted with ODNI for 
information on which countries are terrorist safe havens, and worked 
with State to obtain information that State officials at post may have 
on host nations' information sharing practices. According to the 
Proclamation, based on DHS assessments of each country, DHS reported to 
the President on July 9, 2017, that 47 countries were ``inadequate'' or 
``at risk'' of not meeting the standards. DHS officials identified 
several reasons that a country may have been assessed as ``inadequate'' 
with regard to the criteria. For example, some countries may have been 
willing to provide information, but lacked the capacity to do so. Or, 
some countries may not have been willing to provide certain 
information, or simply did not currently have diplomatic relations with 
the U.S. Government.
    As was required by EO-2, we reported that State engaged with 
foreign governments on their respective performance based on these 
criteria for a 50-day period.\3\ In July 2017, State directed its posts 
to inform their respective host governments of the new information-
sharing criteria and request that host governments provide the required 
information or develop a plan to do so. Posts were directed to then 
engage more intensively with countries DHS's report preliminarily 
deemed ``inadequate'' or ``at risk''. Each post was to submit an 
assessment of mitigating factors or specific interests that should be 
considered in the deliberations regarding any travel restrictions for 
nationals of those countries. DHS officials stated that they reviewed 
the additional information host nations provided to State and then 
reevaluated the initial classifications to determine if any countries 
remained ``inadequate.''
---------------------------------------------------------------------------
    \3\ Exec. Order No. 13780,  2(d), 82 Fed. Reg. at 13,213. 
Specifically, EO-2 directed the Secretary of State to request that all 
foreign governments not providing adequate information regarding their 
nationals to the United States begin providing such information within 
50 days of notification.
---------------------------------------------------------------------------
    On September 15, 2017, in accordance with EO-2, DHS submitted to 
the President a list of countries recommended for inclusion in a 
Presidential proclamation that would prohibit certain categories of 
foreign nationals of such countries from entering the United States.\4\ 
The countries listed were Chad, Iran, Libya, North Korea, Syria, 
Venezuela, and Yemen--which were assessed as ``inadequate,'' and 
Somalia, which was identified as a terrorist safe haven. The 
Presidential Proclamation indefinitely suspended entry into the United 
States of certain categories of nationals from the listed countries 
(see table 7 below from our August 2018 report regarding restrictions 
for nonimmigrants, or temporary visitors) and directed DHS, in 
consultation with State, to devise a process to assess whether the 
entry restrictions should be continued, modified, or terminated.\5\
---------------------------------------------------------------------------
    \4\ See id.  2(e), 82 Fed. Reg. at 13,213.
    \5\ See Proclamation No. 9645, 2, 4, 82 Fed. Reg. at 45,165-167, 
45,169-170.

    TABLE 7.--PRESIDENTIAL PROCLAMATION NONIMMIGRANT VISA (NIV) ENTRY
        RESTRICTIONS BY COUNTRY OF NATIONALITY (AS OF APRIL 2018)
 
------------------------------------------------------------------------
      Country(ies) of Nationality           Scope of NIV Restrictions
------------------------------------------------------------------------
Yemen, Libya, Chad.....................  All temporary visitor (B-1, B-
                                          2, and B-1/B-2) visas.**
Syria..................................  All NIVs.
North Korea............................  All NIVs.
Iran...................................  All NIVs except nonimmigrants
                                          seeking entry on valid student
                                          (F and M) or exchange visitor
                                          (J) visas.
Venezuela..............................  Official-type and diplomatic-
                                          type visas for officials of
                                          certain government agencies
                                          and temporary visitor (B-1, B-
                                          2, and B-1/B-2) visas for
                                          their immediate family
                                          members.
Somalia................................  None.***
------------------------------------------------------------------------
Source.--GAO analysis of Presidential Proclamation 9645 of September 24,
  2017./GAO-18-608
Note.--The Presidential Proclamation also permits consular officers to
  grant waivers to the restrictions and authorize the issuance of visas
  on a case-by-case basis if the visa applicant can demonstrate the
  following: (a) Denying entry would cause undue hardship to the
  applicant; (b) the visa applicant's entry would not pose a threat to
  the National security or public safety of the United States; and (c)
  his or her entry would be in the U.S. National interest.
* The Presidential Proclamation has provided certain exceptions to the
  entry restrictions. For example, unless otherwise specified,
  suspensions do not apply to diplomatic (A-1 or A-2) or diplomatic-type
  visas, visas for employees of international organizations and NATO
  (NATO-1-6, G-1, G-2, G-3, or G-4), or visas for travel to the United
  Nations (C-2).
** As of April 10, 2018, the Proclamation's visa entry restrictions are
  not applicable to nationals of Chad.
*** The restrictions for Somalia only apply to immigrant visas, and do
  not apply to NIVs.

    As of April 10, 2018, the Proclamation's visa entry restrictions 
are not applicable to nationals of Chad. According to State, as part of 
a periodic review of countries as directed in EO-2, Chad was found to 
meet the baseline criteria established by DHS. Specifically, according 
to State, Chad made significant progress toward modernizing its 
passport documents, regularizing processes for routine sharing of 
criminal and terrorist threat information, and improving procedures for 
reporting of lost and stolen passports.
    Since the removal of Chad from the list in April 2018, there have 
been no other changes to the list of countries covered by the 
Proclamation.

    Mr. Dodaro. Yes.
    Mr. Roth. I don't have any insight into that, either.
    Mr. Rose. OK. Thank you.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Texas, Mr. 
Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman. The title of this 
hearing is ``Trouble at the Top: Are Vacancies at the 
Department of Homeland Security Undermining the Mission?'' Yes, 
the answer is yes. I don't think there is any disagreement on 
that. Of course we agree.
    I am new here, so I don't always understand how everything 
works, but I am not so sure why we needed a hearing for this, 
because we agree. I don't think anybody wants there to be 
vacancies at the top. What concerns me is that we don't meet 
that often. We don't have full committee hearings that often. 
The last one was March 6, I believe.
    If we care about the mission and we care about if that 
mission is being undermined, then we should be talking about 
how to fix it and what this committee can do to fix it. We are 
not the administration. We can't nominate more political 
appointments. We are not the Senate. We don't advise or 
consent.
    But there is a lot we can do. I want to talk a little bit 
about that. I do share some of the concerns, counterterrorism, 
cyber. I am from Texas, so the border is in crisis mode right 
now. Two hundred thousand people, that is the approximate 
number of CBP apprehensions along the Southwest Border since 
the last time this committee held a hearing, just since the 
last time we held a hearing, 200,000.
    In March, 103,492 were apprehended. According to CBP, April 
will be on par with that. Border Patrol estimates they actually 
only catch 1 in 3 people, so we can figure that that is 
actually about 600,000 illegal crossings in March and April. 
Ninety-six thousand, two-hundred thirty-seven that is the 
number of apprehensions along just the Texas border between 
March 6, the last time this committee held a hearing, and April 
24. It is safe to say at least 3,763 more have crossed in this 
last week. So we can just call it an even 100,000.
    In the same period, 51,983 pounds of marijuana, 1,342 
pounds of cocaine, 207 pounds of heroin, and 2,856 pounds of 
methamphetamines have been seized along the Texas-Mexico 
border. This is just Texas. Two U.S. soldiers were disarmed by 
the Mexican military on the U.S. side of the border. Human 
smugglers are using drones now to reconnoiter routes. Heavily-
armed escorts are being used to illegally traffic people into 
the United States. We have video of this.
    Border Patrol agents are being taken away from patrolling 
the border to staff processing centers. This leaves critical 
gaps unmanned. Seven hundred and fifty CBP officers, who 
usually staff ports of entry, have been relocated to help deal 
with the humanitarian crisis staffing at processing centers.
    Compared to last year, we have seen an increase of more 
than 370 percent in the number of family units apprehended at 
the Southern Border. Children are arriving sicker than ever 
before. Because of our broken asylum system, children have 
become tokens for free passage. Human traffickers and drug 
cartels are benefiting from this broken system.
    These are the harsh realities of a crisis on the border 
that we should be addressing, but instead we are spending the 
committee's time--we are looking at something we don't control. 
We aren't the administration. Again, we don't nominate. We 
aren't the Senate. We don't provide advice or consent.
    I think we can all agree that the number and length of 
these vacancies is definitely a problem. We agree. Done. Acting 
leaders can't implement a long-term vision and we don't have--
and they do not have the status of confirmed leaders. That 
limits their ability to actually lead and manage.
    However, instead of looking to do what we can, this 
committee is using this hearing as a tool to message and bash 
the administration. Last time we met for a hearing, it was with 
Secretary Nielsen. Did we really try to get facts and answers 
from her? Or do we bring her here for a circus to get sound 
bites for fundraising e-mails?
    What we can do is help DHS accomplish its mission. We can 
help by working to fill the vacancies throughout the 
organization by addressing problems CBP has had with 
recruitment and retention. That is, for instance, why I 
proposed H.R. 1609, which would waive the polygraph requirement 
for CBP applicants with law enforcement or military experience 
who have already gone through thorough vetting.
    I ask that we spend our time finding solutions to fix this 
absolute mess on our border rather than messaging in 
preparation for 2020.
    In my limited time, I do want to ask you all, this hearing 
has vacillated between two subjects. One is management, which 
has been productive. The other is filling vacancies, which we 
have no control over political appointment vacancies.
    On the matter of management, as a Ranking Member--and I 
work with Chairwoman Torres Small, who has been great on this, 
we would like to do that. What are your top three priorities as 
far as fixing--or that we should focus on in that subcommittee, 
the Subcommittee of Management, Oversight, and Accountability?
    Mr. Dodaro. I think the first priority I would mention is 
in the human capital side. You have critical skill vacancies. 
You have right now the Customs and Border Patrol are almost 
7,000 people short of their goal. You have vacant skill gaps in 
the cyber area and acquisition management area, financial 
management area. People are important. They are essential to 
having good management operations.
    It is not just the leaders. It is the skills of the people 
that support the leaders, as well, so that would be my No. 1 
area.
    No. 2 area would be long-term planning for FEMA, in 
particular. I think in the last, you know, since 2005, the 
Federal Government spent nearly half-a-trillion dollars on 
natural disasters. There is still no way to determine how 
prepared State and local entities are. Is the money going to 
help them, prepare them properly? Do we have a disaster 
resilience framework in place? How are they implementing the 
new legislation of the Congress on the Disaster Response 
Recovery Act? I think that is critical to the Department and 
limiting Federal Government's fiscal exposure.
    Then the last area of the three that I would focus on would 
be in the area of cybersecurity. I think that area, as I 
mentioned earlier, that the Federal Government is not moving 
with a sense of urgency commensurate with the emerging threat, 
and new technologies, artificial intelligence, quantum 
computing, other things, are going to make that problem a lot 
worse, not better over time. So those would be my top three.
    Chairman Thompson. Thank you very much.
    For the gentleman from Texas' information, the Secretary of 
Homeland Security was scheduled to be at this hearing today to 
talk about the Department of Homeland Security and its budget. 
She was fired. The second person who was scheduled to take her 
place, she quit. So we have gone on and on talking about 
vacancies, so we felt that since everybody who is running the 
shop is either fired or leaving, it is important to talk about 
vacancies.
    In fact that we have over 50 senior leadership positions at 
the time of this hearing still vacant. Leadership is important. 
So oversight, which is a primary mission, and it has come out 
today that we have to do oversight in order to get it right. So 
this is part of the oversight responsibility of the committee.
    Chairman now recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman. I appreciate you having 
this hearing. That is what we are here for.
    You know, I am sorry the gentleman from Texas just left, 
but you know, these vacancies, some of them are frightening. 
Some of them are strategic, based on the President's 
understanding of what his job is. I don't think that it is a 
mistake that the U.S. Customs and Border Protection position is 
vacant. He wants to run that. It doesn't surprise me that U.S. 
Immigration and Customs Enforcement is vacant. He wants to run 
that. Office of Inspector General, well, you don't have anybody 
checking to make sure things are going properly, and on and on 
and on.
    You know, my colleagues on the other side continue to talk 
about the vacancies in the prior administration, but let us 
reiterate one more time that there was a concerted effort to 
keep the previous President from having people go through the 
process. That is not the case now. It went as high as the 
Supreme Court, the last President. So let's, you know, leave 
the apples and oranges here, OK?
    This is an effort by the President to control this 
Department to the degree he wants to control it. The past 
President was not given the opportunity to fulfill his 
obligations to this Department, period.
    Let me ask my question now. Mr. Roth, as you know, the TSA 
administrator is also fulfilling deputy secretary 
responsibilities. How will this impact airport security across 
the country?
    Mr. Roth. As Mr. Dodaro pointed out, obviously, they have 
an acting administrator for TSA, but it is a critically 
important job and TSA is really still an agency that is a work 
in progress. A lot of things need to occur, for example, with 
regard to hiring, with regard to acquisition of new equipment, 
IT issues that they have, all along the spectrum TSA has to 
improve its operations.
    So any time that you remove senior leadership what you do 
is you remove the ability to engage in long-term planning, 
decision making, and those kinds of things.
    The other thing is--and I have known this from first-hand--
you know, every morning they have a threat assessment, they 
have a threat briefing that the administrator attends, and it 
is critically important to make sure that there is a 
politically accountable individual who is making the decisions 
with regard to the safety of passengers, air passengers.
    Mr. Payne. Doesn't look like many people are there at that 
threat assessment, does it? You know, the gentleman from Texas 
once again said that he hasn't been here that long, and so he 
doesn't know, and he is right. He hasn't been here that long 
and he doesn't know.
    To have U.S. Customs and Border Protection, something that 
this administration has been just overwhelmed or enamored with, 
and then not to have a leader there, what does that do for the 
morale in that Department? What does that do for having a 
direction in that Department?
    Everybody on the other side is so worried about, you know, 
the border protection, but, hey, you don't need a director, you 
don't need anyone at the top. Doesn't make--it is absurd. It 
just doesn't make sense.
    When something serious happens, we are going to all be 
looking at each other and trying to tell the American people 
why we did not do our job. I yield back.
    Chairman Thompson. Ranking Member.
    Mr. Rogers. Thank you, Mr. Chairman. I just want to pause 
for a minute--and I have great respect for Mr. Payne--but we 
need to be careful and keep the proper decorum in this 
committee and not disparage other Members about what they do 
and don't know. It is OK to say he hasn't been here long, but 
to say another Member of this committee doesn't know something, 
I think it is a little bit too far. Thank you. I yield back.
    Chairman Thompson. Well, he said it. He was repeating 
what--he didn't say it.
    Mr. Rogers. Then he came back and said, ``And he doesn't 
know.''
    Chairman Thompson. No, but he--well----
    Mr. Payne. You know, based on the gentleman's length of 
time here.
    Chairman Thompson. So the only thing I am saying is, you 
know, I respect each Member's--how they got here and that. I 
let Mr. Higgins just get his 5 minutes. I will give Mr. Payne 
the same respect to his 5 minutes.
    So that is all the time that we have. Let me just say to 
the witnesses, thank you very much for your expert testimony.
    What I would also like to ask Mr. Dodaro, some of us are 
vitally interested--the Ranking Member and myself--in trying to 
fix some of this. Whatever ideas you might have, if you would 
make those ideas available to us, we would appreciate it. We 
want to get it right, whatever--whether it is a natural 
disaster, an act of terrorism, or whatever, it impacts 
Americans. We need to do that.
    So I do thank you for your participation. I would like to 
also--and your testimony. The Members of the committee will 
have additional questions for the witnesses. We ask that you 
respond expeditiously in writing, as you have already committed 
to. Without objections, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 11:41 a.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Chairman Bennie G. Thompson for Eugene L. Dodaro
    Question 1. Recruitment and retention have been a challenge 
throughout the Department of Homeland Security (DHS). To what extent do 
leadership vacancies affect DHS's ability to recruit, retain, train, 
and develop a workforce equipped to address current and evolving 
threats?
    Answer. Filling vacancies--including top DHS leadership positions 
and the heads of operational components--with confirmed appointees, as 
applicable, could help to ensure continued leadership commitment across 
all of DHS's mission areas.\1\ Over the last 16 years, leadership 
commitment has been a key factor in DHS's progress toward implementing 
our criteria for removal from the High-Risk List. DHS's progress has 
included taking steps to address outcomes related to recruitment, 
retention, training, and development. It remains essential for DHS to 
maintain top leadership support and sustained commitment to ensure 
continued progress.
---------------------------------------------------------------------------
    \1\ GAO-19-544T.
---------------------------------------------------------------------------
    While confirmed leadership is the ideal state, acting or confirmed 
leadership can work to address high-risk human capital challenges, such 
as closing critical skills gaps and ensuring a well-trained workforce. 
For example, we have found that DHS lacks guidance on how to identify 
critical cybersecurity skills and acquisition skills needed to support 
its new information technology delivery model.\2\ We have made 
recommendations to address these challenges, including that DHS should 
ensure its cybersecurity workforce procedures identify position 
vacancies and responsibilities, develop plans for reporting on critical 
needs, and implement a plan for identifying the Department's future 
information technology skillset needs resolving any skills gaps 
identified. Addressing these skill gaps and additional human capital 
challenges that we have identified as high-risk could help DHS fully 
demonstrate its capacity to strengthen and integrate its management 
functions.
---------------------------------------------------------------------------
    \2\ GAO, Cybersecurity Workforce: Urgent Need for DHS to Take 
Actions to Identify Its Position and Critical Skill Requirements, GAO-
18-175 (Washington, DC: Feb. 6, 2018) and Homeland Security: Progress 
Made to Implement IT Reform, but Additional Chief Information Officer 
Involvement Needed, GAO-17-284 (Washington, DC: May 18, 2017).
---------------------------------------------------------------------------
    Question 2a. Ronald Vitiello was named by former Homeland Security 
Secretary Nielsen as ``Acting Director of ICE'' in June 2018. Mr. 
Vitiello later had to drop his ``acting'' title to conform with the 
Federal Vacancies Reform Act. However, after dropping his ``acting'' 
title, Mr. Vitiello continued to perform the nondelegable functions and 
duties of the office of the director. He even used the title of 
``Deputy Director and Senior Official Performing the Duties of 
Director'' until he resigned.
    In GAO's opinion, is this a violation of the Federal Vacancies 
Reform Act's restriction on the continued performance of nondelegable 
duties of an office?
    Answer. Whether this is a violation depends on whether a duty can 
only be performed by the Presidentially-appointed, Senate-confirmed 
position. A violation of the Federal Vacancies Reform Act would occur 
if someone other than the agency head were to perform that duty after 
expiration of the permissible period of acting service. This is because 
once the permissible period of acting service ends, non-delegable 
duties can only be performed by an agency head. GAO has not done the 
work necessary to make such a determination.
    To determine that a violation occurred, the statute or regulation 
in question must be sufficiently prescriptive to conclude that it 
assigned the performance of the duty only to the Presidentially-
appointed, Senate-confirmed position. Additionally, there must be 
evidence that the official, who is not the agency head, performed those 
non-delegable duties.
    Question 2b. Doesn't it negate the Constitutional requirement that 
the Senate confirm heads of agencies, if a political appointee can 
perform nondelegable functions of an office seemingly forever by 
dropping their ``acting'' title?
    Answer. Where non-delegable duties exist and the permissible period 
of acting service has ended, those duties should only be performed by 
an agency head while the office remains vacant. This is the case 
regardless of whether the acting title has been dropped and another 
title is used instead.
    Question 3a. GAO plays a critical role in conducting oversight of 
the Department of Homeland Security (DHS). When those efforts are 
stymied, it makes it more difficult for the public and Congress to know 
whether the Department is operating as it should be.
    Have you faced any challenges in obtaining the information GAO 
needs to conduct its audits of DHS?
    Answer. We are typically able to obtain the information needed from 
DHS for our engagements in a timely manner, as is generally the case 
across the Executive branch. Among Executive branch agencies, GAO and 
DHS have had a particularly strong working relationship, which has 
facilitated our timely access to information. This relationship is 
characterized by regular and open communication, including quarterly 
meetings between senior DHS and GAO executives and regular engagement 
on high-risk issues.
    From time to time, we have had some difficulties obtaining 
information from DHS and its components. In these cases, we have used 
well-established escalation strategies to obtain the requested 
information or to reach an accommodation that allows our work to move 
forward.
    Question 3b. Is there anything about having leadership positions 
vacant throughout the agency that makes it more challenging for GAO to 
do its work?
    Answer. Strong and committed Departmental leadership has been 
critical to the success of our work at DHS. In recent years, both 
acting and confirmed leadership at DHS has demonstrated a strong 
commitment to maintain effective relationships with GAO and provide 
information needed to conduct our audit work. DHS has also demonstrated 
a strong commitment to addressing open GAO recommendations in a timely 
manner.
    We are optimistic that our constructive relationship with DHS will 
continue during this time of transition. However, we will monitor our 
communications, interactions, and our access to information in the 
months ahead and report to you and other committees if we notice any 
negative change in our relationship.
    Questions From Honorable Michael T. McCaul for Eugene L. Dodaro
    Question 1. DHS's primary goal is to keep America safe. Achieving 
this goal requires every administration to make DHS a priority. 
Talented and long-term leadership is a critical component. This has not 
always been the case. No administration since 2003 has a pristine 
record.
    It is incumbent that the Trump administration and Congress must 
change this. They must work together to ensure DHS's talent and 
resources are commensurate with its critical mission. There is too much 
at stake to do anything less.
    I will continue to work with my colleagues on both sides of the 
aisle in the House, the Senate, and the White House to find solutions 
for DHS.
    For years, I have urged each administration to address DHS's 
leadership problems. What recommendations do you have to address senior 
leadership vacancies as well as recruiting and retaining talented 
career professionals?
    Answer. We last reported on senior leadership vacancies at DHS in 
2012, including efforts to address vacancies, and do not have any open 
recommendations regarding senior leadership vacancies.\3\ However, we 
have made a number of observations concerning DHS's leadership 
challenges. In February 2012, we found that senior leadership vacancy 
rates generally declined. from fiscal year 2006 through fiscal year 
2011. At that time, DHS's exit survey responses indicated that the top 
reasons for senior executives leaving were: (1) Supervisor/management, 
(2) personal or family-related reasons, and (3) salary/pay.\4\ At the 
time, DHS officials had implemented two programs to enhance senior 
leadership hiring and recruitment. In fiscal year 2010, DHS implemented 
a simplified pilot hiring process aiming to attract additional 
qualified applicants. According to DHS officials, the pilot was 
successful, and they planned to use the method for all Senior Executive 
Service hiring. In May 2011, DHS also implemented a centralized 
candidate-development program aimed at providing a consistent approach 
to leadership training.
---------------------------------------------------------------------------
    \3\ GAO, DHS Human Capital: Senior Leadership Vacancy Rates 
Generally Declined, but Components' Rates Varied, GAO-12-264 
(Washington, DC: Feb. 10, 2012).
    \4\ In January 2010, DHS deployed its first Department-wide exit 
survey--the DHS National Exit Survey. At the time of our report in 
February 2012, DHS had analyzed, in the aggregate, the senior 
leadership responses it has collected since it implemented the survey. 
That analysis demonstrated that 17 departing officials had self-
identified as senior executives.
---------------------------------------------------------------------------
    Leadership commitment is one of the five criteria areas that must 
be addressed for any agency to be removed from GAO's High-Risk List. We 
stated in May 2019 that filling vacancies--including top DHS leadership 
positions and the heads of operational components--with confirmed 
appointees, as applicable, could help to ensure continued leadership 
commitment across all of DHS's mission areas. In the coming years, DHS 
needs to continue implementing its Integrated Strategy for High-Risk 
Management to show measurable, sustainable progress in implementing 
corrective actions and achieving outcomes. In doing so, it remains 
important for DHS to continue to identify the people and resources 
necessary to make progress toward achieving outcomes, work to mitigate 
shortfalls and prioritize initiatives as needed, and communicate to 
senior leadership critical resource gaps.
    We have been tracking 7 human capital outcomes related to the DHS 
high-risk area. DHS has fully addressed 5 of the 7 outcomes. For the 
remaining 2 outcomes, DHS has partially addressed 1 and mostly 
addressed the other. Specifically, DHS has partially addressed the 
outcome for improving its scores on 4 human capital indices of the 
Federal Employee Viewpoint Survey (leadership and knowledge management, 
results-oriented performance culture, talent management, and job 
satisfaction). Additionally, DHS has mostly addressed the outcome for 
developing and implementing a mechanism to assess education, training, 
and other development programs and opportunities to help employees 
build and acquire needed skills and competencies. We will continue to 
monitor DHS's progress in sustaining and addressing these outcomes 
moving forward.
    Question 2. Can you describe the structural changes to DHS that 
would facilitate better leadership awareness, oversight, communication, 
responsibility, and accountability? What steps should Congress take?
    Answer. DHS needs to continue implementing its Integrated Strategy 
for High-Risk Management and maintain engagement with us to show 
measurable, sustainable progress in implementing corrective actions and 
achieving outcomes. DHS can accomplish this by, among other things, 
maintaining a high level of top leadership support and sustained 
commitment to ensure continued progress in executing its corrective 
actions through completion, and increasing employee engagement and 
morale. Congressional oversight also plays a critical role.
    Congress, through the Homeland Security Act of 2002 and subsequent 
amendments, has also taken important steps to establish within DHS the 
under secretary for management (USM) position, which is responsible for 
management and administration of the Department. The roles and 
responsibilities, and qualifications and performance expectations of 
the USM, who is designated in statute as the Department's chief 
management officer (CMO), align with our criteria for CMO positions in 
Federal agencies.\5\ Consistent with our criteria, one action Congress 
could consider to help ensure continuity of leadership in the 
Department's USM/CMO position would be to establish a term appointment 
for the position for at least a 5-7 year period to help promote 
continuity over time. The term could have a renewal option as well.
---------------------------------------------------------------------------
    \5\ GAO, Organizational Transformation: Implementing Chief 
Operating Officer/Chief Management Officer Positions in Federal 
Agencies, GAO-08-34 (Washington, DC: Nov. 1, 2007).
---------------------------------------------------------------------------
    Further, we have observed that across the various Government high-
risk areas that we monitor, consistent Congressional oversight is key 
to making progress in these areas and holding agencies accountable. 
Hearings, such as the one that the committee held, and continuing 
efforts to legislate needed reforms will be key to DHS's continued 
success.
    Question 3. Last Congress, I helped lead the effort to pass the 
first-ever comprehensive reauthorization of DHS with bipartisan support 
in the House. How would a comprehensive reauthorization help improve 
DHS's mission as well as potentially improve employee morale?
    Answer. Comprehensive reauthorization would provide an updated 
framework for the Department that takes into account changes made as 
part of the Department's transformation since 2002. For example, 
reauthorizing legislation could codify positive reforms DHS has made to 
major management functions, such as areas like financial and 
acquisitions management, human capital, and information technology. 
Further, legislation that reflects current National priorities and 
directs the Department toward these priorities could ensure more 
efficient and effective operations to achieve DHS's mission. This in 
turn could improve employee morale and the Department's ability to hire 
and retain employees with critical skills. Given the critical nature of 
DHS's mission to protect the security and economy of our Nation, it is 
important that DHS employees be satisfied with their jobs so that DHS 
can retain and attract the talent required to complete its work.
       Question From Honorable Peter T. King for Eugene L. Dodaro
    Question. Could GAO please provide a list of reports that it has 
issued on the terrorism and terrorism-related issues over the last 
several years as well as an on-going work on terrorism and terrorism-
related issues?
    Answer. The following is a list of terrorism and terrorism-related 
reports that GAO has on-going and issued in the last 5 fiscal years. We 
have also testified dozens of times on terrorism and terrorism-related 
topics.
  on-going terrorism and terrorism-related work (as of june 17, 2019)
    DOD Mission Assurance (planned issuance 9/2019)
    Lebanon Security Assistance (planned issuance 11/2019)
    U.S. Assistance to the West Bank and Gaza (planned issuance 6/2020)
    Coast Guard Deployable Specialized Forces (planned issuance 11/
2019)
    U.S. Assistance to the Iraq Ministry of Interior (planned issuance 
3/2020)
    National Biodefense Strategy (planned issuance 11/2019)
    Disaster Preparedness and Lessons Learned from 2017 and 2018 
Disasters (planned issuance 1/2020)
    TSA Passenger Screening Rules (planned issuance 12/2019)
    Surface Transportation Security Research and Development Efforts 
(planned issuance 9/2019)
    Security of Airport Public Spaces (planned issuance 12/2019)
    TSA Insider Threat Program (planned issuance 2/2020)
    National Strategy for Transportation Security (planned issuance 12/
2019)
    Terrorist Screening Database (planned issuance 6/2019)
    National Cyber Investigative Joint Task Force (planned issuance 9/
2019)
terrorism and terrorism-related work issued in fiscal year 2019 (as of 
                                6/17/19)
    Critical Infrastructure Protection: Key Pipeline Security Documents 
Need to Reflect Current Operating Environment (GAO-19-426)
    Combating Nuclear Terrorism: DHS Should Address Limitations to Its 
Program to Secure Key Cities (GAO-19-327)
    Priority Open Recommendations: Department of Homeland Security 
(GAO-19-360SP)
    Aviation Security: TSA Uses a Variety of Methods to Secure U.S.-
Bound Air Cargo, but Could Do More to Assess Their Effectiveness (GAO-
19-162)
    Special Operations Forces: Actions Needed to Manage Increased 
Demand and Improve Data for Assessing Readiness (GAO-19-149C)
    Continuity of Operations: Actions Needed to Strengthen FEMA's 
Oversight and Coordination of Executive Branch Readiness (GAO-19-18SU)
    FEMA Grants Modernization: Improvements Needed to Strengthen 
Program Management and Cybersecurity (GAO-19-164)
    Aviation Security: TSA Improved Covert Testing but Needs to Conduct 
More Risk-Informed Tests and Address Vulnerabilities (GAO-19-374)
    Federal Protective Service: DHS Should Take Additional Steps to 
Evaluate Organizational Placement (GAO-19-122)
    Critical Infrastructure Protection: Actions Needed to Address 
Significant Weaknesses in TSA's Pipeline Security Program Management 
(GAO-19-48)
    Information Security: Agencies Need to Improve Implementation of 
Federal Approach to Securing Systems and Protecting against Intrusions 
(GAO-19-105)
    Federal Law Enforcement: Purchases and Inventory Controls of 
Firearms, Ammunition, and Tactical Equipment (GAO-19-175)
    Emergency Communications: Office of Emergency Communications Should 
Take Steps to Help Improve External Communications (GAO-19-171)
    Cybersecurity: Federal Agencies Met Legislative Requirements for 
Protecting Privacy When Sharing Threat Information (GAO-19-114R)
    Combating Nuclear Terrorism: NRC Needs to Take Additional Actions 
to Ensure the Security of High-Risk Radioactive Material (GAO-19-468)
    Military Courts: DOD Should Assess the Tradeoffs Associated With 
Expanding Public Access to and Information About Terrorism Trials (GAO-
19-283)
    State Department: Better Oversight and Controls Could Improve 
Timely Delivery of Legal Documents for Terrorism Victims (GAO-19-139)
    Fiscal Exposures: Federal Insurance and Other Activities That 
Transfer Risk or Losses to the Government (GAO-19-353)
    Homeland Security: Research & Development Coordination Has 
Improved, but Additional Actions Needed to Track and Evaluate Projects 
(GAO-19-210)
    Export Controls: State and Commerce Should Share Watch List 
Information If Proposed Rules to Transfer Firearms Are Finalized (GAO-
19-307)
    Security Assistance: U.S. Agencies Should Establish a Mechanism to 
Assess Caribbean Basin Security Initiative Progress (GAO-19-201)
    National Security: Long-Range Emerging Threats Facing the United 
States as Identified by Federal Agencies (GAO-19-204SP)
    Colombia: U.S. Counternarcotics Assistance Achieved Some Positive 
Results but State Needs to Review the Overall U.S. Approach (GAO-19-
106)
    Human Trafficking: State and USAID Should Improve Their Monitoring 
of International Counter-trafficking Projects (GAO-19-77)
    terrorism and terrorism-related work issued in fiscal year 2018
    Chemical Terrorism: A Strategy and Implementation Plan Would Help 
DHS Better Manage Fragmented Chemical Defense Programs and Activities 
(GAO-18-562)
    Critical Infrastructure Protection: DHS Should Take Actions to 
Measure Reduction in Chemical Facility Vulnerability and Share 
Information with First Responders (GAO-18-538)
    Homeland Security: Clearer Roles and Responsibilities for the 
Office of Strategy, Policy, and Plans and Workforce Planning Would 
Enhance Its Effectiveness (GAO-18-590)
    Homeland Security Grant Program: Additional Actions Could Further 
Enhance FEMA's Risk-Based Grant Assessment Model (GAO-18-354)
    Emergency Communications: Increased Regional Collaboration Could 
Enhance Capabilities (GAO-18-379)
    Emergency Management: Implementation of the Major Disaster 
Declaration Process for Federally-Recognized Tribes (GAO-18-443)
    Homeland Security Acquisitions: Leveraging Programs' Results Could 
Further DHS's Progress to Improve Portfolio Management (GAO-18-339SP)
    Foreign Assistance: U.S. Assistance for the West Bank and Gaza, 
Fiscal Years 2015 and 2016 (GAO-18-612)
    Security Force Assistance: U.S. Advising of Afghan National Army 
Has Expanded Since 2015, and the U.S. Army Has Deployed a New Advising 
Unit (GAO-18-573RC)
    Nonimmigrant Visas: Outcomes of Applications and Changes in 
Response to 2017 Executive Actions (GAO-18-608)
    Overseas Conflicts: U.S. Agencies Have Coordinated Stabilization 
Efforts but Need to Document Their Agreement (GAO-18-654)
    Counterterrorism: DOD Should Fully Address Security Assistance 
Planning Elements in Global Train and Equip Project Proposals (GAO-18-
449)
    Science and Technology: Considerations for Maintaining U.S. 
Competitiveness in Quantum Computing, Synthetic Biology, and Other 
Potentially Transformational Research Areas (GAO-18-656)
    Humanitarian Assistance: USAID Should Improve Information 
Collection and Communication to Help Mitigate Implementers' Banking 
Challenges (GAO-18-669)
    Biological Select Agents and Toxins: Actions Needed to Improve 
Management of DOD's Biosafety and Biosecurity Program (GAO-18-422)
    Nuclear Nonproliferation: The Administration's 2018 Plan for 
Verification and Monitoring Met Most Reporting Requirements but Did Not 
Include Future Costs and Funding Needs (GAO-18-617)
    Law Enforcement: Few Individuals Denied Firearms Purchases Are 
Prosecuted and ATF Should Assess Use of Warning Notices in Lieu of 
Prosecutions (GAO-18-440)
    Central American Police Training: State and USAID Should Ensure 
Human Rights Content Is Included as Appropriate, and State Should 
Improve Data (GAO-18-618)
    Improvised Threats: Warfighter Support Maintained, but Clearer 
Responsibilities and Improved Information Sharing Needed (GAO-18-509)
    Foreign Assistance: Better Guidance for Strategy Development Could 
Help Agencies Align Their Efforts (GAO-18-499)
    Committee on Foreign Investment in the United States: Action Needed 
to Address Evolving National Security Concerns Facing the Department of 
Defense (GAO-18-494)
    Nuclear Nonproliferation: The Administration's 2015 Plan and 2017 
Update for Nuclear Proliferation Verification and Monitoring Generally 
Did Not Address Reporting Requirements (GAO-18-505R)
    Small Unmanned Aircraft Systems: FAA Should Improve Its Management 
of Safety Risks (GAO-18-110)
    Border Security: Actions Needed to Strengthen Performance 
Management and Planning for Expansion of DHS's Visa Security Program 
[Reissued with Revisions Mar. 29, 2018] (GAO-18-314)
    Customs and Border Protection: Automated Trade Data System Yields 
Benefits, but Interagency Management Approach Is Needed (GAO-18-271)
    Emergency Management: Federal Agencies Could Improve Dissemination 
of Resources to Colleges (GAO-18-233)
    Critical Infrastructure Protection: Additional Actions Are 
Essential for Assessing Cybersecurity Framework Adoption (GAO-18-211)
    Critical Infrastructure Protection: Electricity Suppliers Have 
Taken Actions to Address Electromagnetic Risks, and Additional Research 
Is On-going (GAO-18-67)
    Transportation Security Administration: Surface Transportation 
Inspector Activities Should Align More Closely With Identified Risks 
(GAO-18-180)
    Aviation Security: TSA Strengthened Foreign Airport Assessments and 
Air Carrier Inspections, but Could Improve Analysis to Better Address 
Deficiencies (GAO-18-178)
    Critical Infrastructure Protection: DHS Risk Assessments Inform 
Owner and Operator Protection Efforts and Departmental Strategic 
Planning (GAO-18-62)
    TSA Modernization: Use of Sound Program Management and Oversight 
Practices Is Needed to Avoid Repeating Past Problems (GAO-18-46)
    Biodefense: Federal Efforts to Develop Biological Threat Awareness 
(GAO-18-155)
    Committee on Foreign Investment in the United States: Treasury 
Should Coordinate Assessments of Resources Needed to Address Increased 
Workload (GAO-18-249)
    Personnel Security Clearances: Additional Actions Needed to Ensure 
Quality, Address Timeliness, and Reduce Investigation Backlog (GAO-18-
29)
    Physical Security: NIST and Commerce Need to Complete Efforts to 
Address Persistent Challenges [Reissued with Revisions Mar. 14, 2018] 
(GAO-18-95)
    High-Containment Laboratories: Coordinated Actions Needed to 
Enhance the Select Agent Program's Oversight of Hazardous Pathogens 
(GAO-18-145)
    Automated Vehicles: Comprehensive Plan Could Help DOT Address 
Challenges (GAO-18-132)
    Personnel Security Clearances: Plans Needed to Fully Implement and 
Oversee Continuous Evaluation of Clearance Holders (GAO-18-117)
    terrorism and terrorism-related work issued in fiscal year 2017
    Antiterrorism Assistance: State Department Should Improve Data 
Collection and Participant Oversight (GAO-17-704)
    National Mall: Actions Needed to Better Manage Physical Security 
Risks (GAO-17-679)
    Federal Emergency Management Agency: Additional Actions Needed to 
Improve Handling of Employee Misconduct Allegations (GAO-17-613)
    Critical Infrastructure Protection: DHS Has Fully Implemented Its 
Chemical Security Expedited Approval Program, and Participation to Date 
Has Been Limited (GAO-17-502)
    Weapon Systems: Prototyping Has Benefited Acquisition Programs, but 
More Can Be Done to Support Innovation Initiatives (GAO-17-309)
    Customs and Border Protection: Improved Planning Needed to 
Strengthen Trade Enforcement (GAO-17-618)
    Iraq: DOD Needs to Improve Visibility and Accountability Over 
Equipment Provided to Iraq's Security Forces (GAO-17-433)
    Countering Violent Extremism: Actions Needed to Define Strategy and 
Assess Progress of Federal Efforts (GAO-17-300)
    2017 Annual Report: Additional Opportunities to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits (GAO-17-491SP)
    Building Partner Capacity: Inventory of Department of Defense 
Security Cooperation and Department of State Security Assistance 
Efforts (GAO-17-255R)
    Critical Infrastructure Protection: Additional Actions by DHS Could 
Help Identify Opportunities to Harmonize Access Control Efforts (GAO-
17-182)
    Contracting Data Analysis: Assessment of Government-wide Trends 
(GAO-17-244SP)
    Radioactive Sources: Opportunities Exist for Federal Agencies to 
Strengthen Transportation Security (GAO-17-58)
    Contractor Whistleblower Protections Pilot Program: Improvements 
Needed to Ensure Effective Implementation (GAO-17-227)
    Foreign Assistance: Agencies Can Improve the Quality and 
Dissemination of Program Evaluations (GAO-17-316)
    Electricity: Federal Efforts to Enhance Grid Resilience (GAO-17-
153)
    Federal Courthouses: Actions Needed to Enhance Capital Security 
Program and Improve Collaboration (GAO-17-215)
    Bioforensics: DHS Needs to Conduct a Formal Capability Gap Analysis 
to Better Identify and Address Gaps (GAO-17-177)
    Border Security: CBP Aims to Prevent High-Risk Travelers from 
Boarding U.S.-Bound Flights, but Needs to Evaluate Program Performance 
(GAO-17-216)
    Cybersecurity: DHS's National Integration Center Generally Performs 
Required Functions but Needs to Evaluate Its Activities More Completely 
(GAO-17-163)
    Federal Real Property: GSA Should Inform Tenant Agencies When 
Leasing High-Security Space from Foreign Owners (GAO-17-195)
    Rule of Law Assistance: DOD Should Assess Workforce Size of Defense 
Institute of International Legal Studies (GAO-17-118)
    Declining Resources: Selected Agencies Took Steps to Minimize 
Effects on Mission but Opportunities Exist for Additional Action (GAO-
17-79)
    Supply Chain Security: Providing Guidance and Resolving Data 
Problems Could Improve Management of the Customs-Trade Partnership 
Against Terrorism Program (GAO-17-84)
    Permanent Funding Authorities: Some Selected Entities Should Review 
Financial Management, Oversight, and Transparency Policies (GAO-17-59)
    Air Traffic Control: Experts' and Stakeholders' Views on Key Issues 
to Consider in a Potential Restructuring [Reissued on December 9, 2016] 
(GAO-17-131)
    Enterprise Risk Management: Selected Agencies' Experiences 
Illustrate Good Practices in Managing Risk (GAO-17-63)
    Radiation Portal Monitors: DHS's Fleet Is Lasting Longer than 
Expected, and Future Acquisitions Focus on Operational Efficiencies 
(GAO-17-57)
    Hazardous Materials Rail Shipments: Emergency Responders Receive 
Support, but DOT Could Improve Oversight of Information Sharing (GAO-
17-91)
    West Coast Ports: Better Supply Chain Information Could Improve 
DOT's Freight Efforts (GAO-17-23)
    International Mail Security: Costs and Benefits of Using Electronic 
Data to Screen Mail Need to Be Assessed (GAO-17-606)
    Intelligence Community: Analysis of Alternatives Approach for a New 
Site Reflects Most Characteristics of a High-Quality Process (GAO-17-
643)
    DOD Biometrics and Forensics: Progress Made in Establishing Long-
term Deployable Capabilities, but Further Actions Are Needed (GAO-17-
580)
    Internet of Things: Enhanced Assessments and Guidance Are Needed to 
Address Security Risks in DOD (GAO-17-668)
    Supply Chain Security: CBP Needs to Enforce Compliance and Assess 
the Effectiveness of the Importer Security Filing and Additional 
Carrier Requirements (GAO-17-650)
    DOD Excess Property: Enhanced Controls Needed for Access to Excess 
Controlled Property (GAO-17-532)
    Department of Defense: Actions Needed to Address Five Key Mission 
Challenges (GAO-17-369)
    Iran Sanctions: U.S. Agencies Continue to Implement Processes for 
Identifying Potentially Sanctionable Entities (GAO-17-779R)
    Managing for Results: Further Progress Made in Implementing the 
GPRA Modernization Act, but Additional Actions Needed to Address 
Pressing Governance Challenges (GAO-17-775)
    Iraqi and Syrian Cultural Property: U.S. Government Committee 
Should Incorporate Additional Collaboration Practices (GAO-17-716)
    Diplomatic Security: Key Oversight Issues (GAO-17-681SP)
    Anti-Money Laundering: U.S. Efforts to Combat Narcotics-Related 
Money Laundering in the Western Hemisphere (GAO-17-684)
    Aviation Security: Actions Needed to Systematically Evaluate Cost 
and Effectiveness Across Security Countermeasures (GAO-17-794)
    Terrorism Risk Insurance: Market Challenges May Exist for Current 
Structure and Alternative Approaches (GAO-17-62)
    Aviation Security: TSA Has Made Progress Implementing Requirements 
in the Aviation Security Act of 2016 (GAO-17-662)
    Critical Infrastructure Protection: Improvements Needed for DHS's 
Chemical Facility Whistleblower Report Process (GAO-16-572)
    Diplomatic Security: State Should Enhance Its Management of 
Transportation-Related Risks to Overseas U.S. Personnel (GAO-17-124)
    Emergency Communications: Improved Procurement of Land Mobile 
Radios Could Enhance Interoperability and Cut Costs (GAO-17-12)
    Federal Disaster Assistance: FEMA's Progress in Aiding Individuals 
with Disabilities Could Be Further Enhanced (GAO-17-200)
    High-Risk Series: Progress on Many High-Risk Areas, While 
Substantial Efforts Needed on Others (GAO-17-317)
    Countering ISIS and Its Effects: Key Issues for Oversight (GAO-17-
687SP)
    Combating Terrorism: Additional Steps Needed in U.S. Efforts to 
Counter ISIS Messaging (GAO-17-41C)
    Combating Terrorism: U.S. Footprint Poses Challenges for the Advise 
and Assist Mission in Iraq (GAO-17-220C)
    Low-Dose Radiation: Interagency Collaboration on Planning Research 
Could Improve Information on Health Effects (GAO-17-546)
    Highlights of a Forum: Combating Synthetic Identity Fraud (GAO-17-
708SP)
    Emergency Communications: Improved Procurement of Land Mobile 
Radios Could Enhance Interoperability and Cut Costs (GAO-17-12)
    terrorism and terrorism-related work issued in fiscal year 2016
    Iraq: State and DOD Need to Improve Documentation and Record 
Keeping for Vetting of Iraq's Security Forces (GAO-16-658C)
    Homeland Security: DHS's Chemical, Biological, Radiological, 
Nuclear, and Explosives Program Consolidation Proposal Could Better 
Consider Benefits and Limitations (GAO-16-603)
    Federal Air Marshal Service: Additional Actions Needed to Ensure 
Air Marshals' Mission Readiness (GAO-16-764)
    Air Force Training: Further Analysis and Planning Needed to Improve 
Effectiveness (GAO-16-864)
    Counterterrorism: DOD Should Enhance Management of and Reporting on 
Its Global Train and Equip Program (GAO-16-368)
    Foreign Aid: USAID Generally Complied with Its Antiterrorism 
Policies and Procedures for Program Assistance for West Bank and Gaza 
(GAO-16-442)
    Joint Intelligence Analysis Complex: DOD Partially Used Best 
Practices for Analyzing Alternatives and Should Do So Fully for Future 
Military Construction Decisions (GAO-16-853)
    Terrorism Risk Insurance: Comparison of Selected Programs in the 
United States and Foreign Countries (GAO-16-316)
    Combating Nuclear Smuggling: NNSA's Detection and Deterrence 
Program Is Addressing Challenges but Should Improve Its Program Plan 
[Reissued on June 20, 2016] (GAO-16-460)
    Visa Waiver Program: DHS Should Take Steps to Ensure Timeliness of 
Information Needed to Protect U.S. National Security (GAO-16-498)
    Federal Air Marshal Service: Actions Needed to Better Incorporate 
Risk in Deployment Strategy (GAO-16-582)
    Quadrennial Homeland Security Review: Improved Risk Analysis and 
Stakeholder Consultations Could Enhance Future Reviews (GAO-16-371)
    Information Technology: FEMA Needs to Address Management Weaknesses 
to Improve Its Systems (GAO-16-306)
    High-Containment Laboratories: Comprehensive and Up-to-Date 
Policies and Stronger Oversight Mechanisms Needed to Improve Safety 
(GAO-16-305)
    Critical Infrastructure Protection: Federal Agencies Have Taken 
Actions to Address Electromagnetic Risks, but Opportunities Exist to 
Further Assess Risks and Strengthen Collaboration (GAO-16-243)
    Emergency Management: Improved Federal Coordination Could Better 
Assist K-12 Schools Prepare for Emergencies (GAO-16-144)
    Emergency Communications: Actions Needed to Better Coordinate 
Federal Efforts in the National Capital Region (GAO-16-249)
    Transportation Security: Status of GAO Recommendations on TSA's 
Security-Related Technology Acquisitions (GAO-16-176)
    Federal Emergency Management Agency: Strengthening Regional 
Coordination Could Enhance Preparedness Efforts (GAO-16-38)
    Biosurveillance: DHS Should Not Pursue BioWatch Upgrades or 
Enhancements Until System Capabilities Are Established (GAO-16-99)
    Critical Infrastructure Protection: Sector-Specific Agencies Need 
to Better Measure Cybersecurity Progress (GAO-16-79)
    Nuclear Nonproliferation: NNSA's Threat Assessment Process Could Be 
Improved (GAO-16-118)
    Cultural Property: Protection of Iraqi and Syrian Antiquities (GAO-
16-673)
    SEC Conflict Minerals Rule: Companies Face Continuing Challenges in 
Determining Whether Their Conflict Minerals Benefit Armed Groups (GAO-
16-805)
    High-Containment Laboratories: Improved Oversight of Dangerous 
Pathogens Needed to Mitigate Risk (GAO-16-642)
    Defense Civil Support: DOD Has Made Progress Incorporating the 
Homeland Response Force into the Chemical, Biological, Radiological, 
and Nuclear Response Enterprise (GAO-16-599)
    Security Assistance: U.S. Government Should Strengthen End-Use 
Monitoring and Human Rights Vetting for Egypt (GAO-16-435)
    Federal Real Property: Improving Data Transparency and Expanding 
the National Strategy Could Help Address Long-standing Challenges (GAO-
16-275)
    2016 Annual Report: Additional Opportunities to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits (GAO-16-375SP)
    Critical Defense Materials: Government Collected Data Are 
Sufficiently Reliable to Assess Tantalum Availability (GAO-16-335)
    Aviation Forecasting: FAA Should Implement Additional Risk-
Management Practices in Forecasting Aviation Activity (GAO-16-210)
    International Remittances: Money Laundering Risks and Views on 
Enhanced Customer Verification and Recordkeeping Requirements (GAO-16-
65)
    Building Partner Capacity: U.S. Agencies Can Improve Monitoring of 
Counter-Firearms Trafficking Efforts in Belize, Guatemala, and Mexico 
(GAO-16-235)
    Overseas Private Investment Corporation: Additional Actions Could 
Improve Monitoring Processes (GAO-16-64)
    Critical Infrastructure Protection: Measures Needed to Assess 
Agencies' Promotion of the Cybersecurity Framework (GAO-16-152)
    Air Travel and Communicable Diseases: Comprehensive Federal Plan 
Needed for U.S. Aviation System's Preparedness (GAO-16-127)
    Defense Advanced Research Projects Agency: Key Factors Drive 
Transition of Technologies, but Better Training and Data Dissemination 
Can Increase Success (GAO-16-5)
    National Security Personnel: Committed Leadership Is Needed for 
Implementation of Interagency Rotation Program (GAO-16-57)
    Syria: DOD Has Organized Forces to Execute the Syria Train and 
Equip Program but Faces Challenges in Fully Developing Personnel 
Requirements (GAO-16-292C)
    Countering Improvised Explosive Devices: Improved Planning Could 
Enhance Federal Coordination Efforts (GAO-16-581SU)
    terrorism and terrorism-related work issued in fiscal year 2015
    Biosurveillance: Challenges and Options for the National 
Biosurveillance Integration Center (GAO-15-793)
    Critical Infrastructure Protection: DHS Action Needed to Verify 
Some Chemical Facility Information and Manage Compliance Process (GAO-
15-614)
    Emergency Preparedness: Opportunities Exist to Strengthen 
Interagency Assessments and Accountability for Closing Capability Gaps 
[Reissued on December 9, 2015] (GAO-15-20)
    Confidential Informants: Updates to Policy and Additional Guidance 
Would Improve Oversight by DOJ and DHS Agencies (GAO-15-807)
    Hurricane Sandy: An Investment Strategy Could Help the Federal 
Government Enhance National Resilience for Future Disasters (GAO-15-
515)
    Immigrant Investor Program: Additional Actions Needed to Better 
Assess Fraud Risks and Report Economic Benefits (GAO-15-696)
    Defense Transportation: Air Force's Airlift Study Met Mandate 
Requirements (GAO-15-457R)
    Facility Security: Federal Protective Service's and Selected 
Federal Tenants' Sharing of and Response to Incident Information (GAO-
15-406R)
    Homeland Security: Action Needed to Better Assess Cost-
Effectiveness of Security Enhancements at Federal Facilities [Reissued 
on April 2, 2015] (GAO-15-444)
    Homeland Security: Actions Needed to Better Manage Security 
Screening at Federal Buildings and Courthouses (GAO-15-445)
    Combating Nuclear Smuggling: DHS Research and Development on 
Radiation Detection Technology Could Be Strengthened (GAO-15-263)
    Combating Terrorism: Steps Taken to Mitigate Threats to Locally 
Hired Staff, but State Department Could Improve Reporting on Terrorist 
Threats (GAO-15-458SU)
    Government Publishing Office: Production of Secure Credentials for 
the Department of State and U.S. Customs and Border Protection (GAO-15-
326R)
    Supply Chain Security: CBP Needs to Enhance Its Guidance and 
Oversight of High-Risk Maritime Cargo Shipments (GAO-15-294)
    Aviation Security: TSA Should Take Additional Action to Obtain 
Stakeholder Input When Modifying the Prohibited Items List (GAO-15-261)
    Information Sharing: DHS Is Assessing Fusion Center Capabilities 
and Results, but Needs to More Accurately Account for Federal Funding 
Provided to Centers (GAO-15-155)
    Public Transit: Federal and Transit Agencies Taking Steps to Build 
Transit Systems' Resilience but Face Challenges (GAO-15-159)
    Aviation Security: Rapid Growth in Expedited Passenger Screening 
Highlights Need to Plan Effective Security Assessments (GAO-15-150)
    Critical Infrastructure Protection: DHS and State Need to Improve 
Their Process for Identifying Foreign Dependencies (GAO-15-233C)
    Combating Terrorism: State Should Review How It Addresses Holds 
Placed During the Foreign Terrorist Organization Designation Process 
(GAO-15-439SU)
    Combating Terrorism: State Should Evaluate Its Countering Violent 
Extremism Program and Set Time Frames for Addressing Evaluation 
Recommendations (GAO-15-684)
    Yemen: DOD Should Improve Accuracy of Its Data on Congressional 
Clearance of Projects as It Reevaluates Counterterrorism Assistance 
(GAO-15-493)
    Combating Terrorism: Foreign Terrorist Organization Designation 
Process and U.S. Agency Enforcement Actions (GAO-15-629)
    Combating Terrorism: Steps Taken to Mitigate Threats to Locally 
Hired Staff, but State Department Could Improve Reporting on Terrorist 
Threats (GAO-15-458SU)
    High-Risk Series: An Update (GAO-15-290). High-Risk area--
Establishing Effective Mechanisms for Sharing and Managing Terrorism-
Related Information to Protect the Homeland
        Questions From Honorable Michael T. McCaul for John Roth
    Question 1. DHS's primary goal is to keep America safe. Achieving 
this goal requires every administration to make DHS a priority. 
Talented and long-term leadership is a critical component. This has not 
always been the case. No administration since 2003 has a pristine 
record. It is incumbent that the Trump administration and Congress must 
change this. They must work together to ensure DHS's talent and 
resources are commensurate with its critical mission. There is too much 
at stake to do anything less.
    I will continue to work with my colleagues on both sides of the 
aisle in the House, the Senate, and the White House to find solutions 
for DHS.
    For years, I have urged each administration to address DHS's 
leadership problems. What recommendations do you have to address senior 
leadership vacancies as well as recruiting and retaining talented 
career professionals?
    Answer. Creating a positive leadership culture requires a long-term 
commitment to effectively recruit, train, and reward individuals who 
choose to devote a life to public service. As an initial step, the 
administration needs to rededicate itself to appointing senior 
leadership in a timely manner, with qualified candidates that will be 
swiftly confirmed. To ensure an adequate cadre of career professionals, 
DHS should develop a unified leadership ``pipeline.'' According to the 
Partnership for Public Service, strengthening the pipeline includes: 
(1) Creating a central office for accountability and responsibility to 
do so, (2) developing a comprehensive approach for developing talent to 
recruit into the Senior Executive Service ranks, and open senior 
executive pipelines to external candidates as well.\1\ To date, the 
Department has not taken a cohesive, whole-of-Department approach to 
recruiting qualified candidates. Negative morale actively hampers 
recruitment efforts, and DHS' overall time-to-hire is very poor.
---------------------------------------------------------------------------
    \1\ Partnership for Public Service, Building the Leadership Bench, 
https://ourpublicservice.org/wp-content/uploads/2013/07/
9fa59e1bf79d8e17d83729f4c97c716b-1396975476.pdf.
---------------------------------------------------------------------------
    Question 2. Can you describe the structural changes to DHS that 
would facilitate better leadership awareness, oversight, communication, 
responsibility, and accountability? What steps should Congress take?
    Answer. DHS must take a renewed focus on management fundamentals. 
Although neither exciting nor publicly lauded, the basics of management 
are the lifeblood of informed decision making and successful mission 
performance. Management fundamentals include having accurate, complete 
information on operations and their cost; meaningful performance 
metrics on programs and goals; and appropriate internal controls. The 
Department has made strides in establishing its management 
fundamentals, including obtaining an unmodified opinion on its 
financial statements. DHS has also instituted many positive steps such 
as over-arching acquisition policies and other meaningful acquisition 
reforms, but the value of these steps is undermined by the lack of 
discipline in management fundamentals. The on-going challenges the 
Department faces into are usefully summarized into three main 
categories:
  <bullet> Collecting the right data.--The Department does not 
        prioritize collection of data in its program planning, does not 
        always gather enough data, and does not validate the data it 
        receives to ensure it is accurate and complete. The lack of 
        reliable and complete data permeates through the entire 
        Department and its components and is often accompanied by too 
        little management oversight and weak internal controls.
  <bullet> Collecting and Analyzing Cost Data.--DHS does not put 
        sufficient emphasis on collecting cost data for operations and 
        programs. Successful businesses unfailingly track cost data 
        because the cost of their operations or products directly 
        impacts their bottom-line revenue. Government does not have 
        that bottom-line drive for cost information; yet, all 
        Government programs should rely on informed decision making to 
        optimize performance. Without cost information, DHS cannot 
        conduct a reliable cost-benefit analysis of proposed program or 
        policy changes or new initiatives. Because it does not fully 
        understand the costs of its program choices, the Department is 
        not equipped to analyze its risk decisions.
  <bullet> Performance Management.--DHS does not routinely establish 
        meaningful performance measures for many of its on-going 
        initiatives and programs. Multiple audit and inspection reports 
        identify deficiencies in or the absence of DHS performance 
        measures. OIG audits have identified costly programs that DHS 
        has not measured for effectiveness. Therefore, we do not know 
        whether the investment of taxpayer resources is a good one.
    Additionally, as I noted in my testimony, the Secretary's Office 
and the Deputy Secretary's Office are simply too thinly-staffed to be 
able to even be aware of, much less effectively manage, the significant 
and varied issues that face DHS. In my time as inspector general, 
through two administrations, senior leadership was continually caught 
by surprise by our findings. They simply did not have the staff or the 
structure to be fully informed to conduct effective oversight.
    Question 3. Last Congress, I helped lead the effort to pass the 
first-ever comprehensive reauthorization of DHS with bipartisan support 
in the House. How would a comprehensive reauthorization help improve 
DHS's mission as well as potentially improve employee morale?
    Answer. As inspector general, I wholeheartedly endorsed the efforts 
to pass a comprehensive reauthorization of DHS. It includes many 
updates and modernization efforts that would assist in improving 
morale, by creating a more streamlined, effective, and centralized 
Department. This includes reforming the DHS headquarters structure and 
ensuring needed acquisition reforms are in place. Most importantly, it 
requires DHS to focus on human resource matters specifically, requiring 
the Secretary to create an action plan to improve employee engagement, 
diversity, and development.
    Question 4. You noted that a dysfunctional work environment has 
plagued DHS since its inception. Can you describe this in more detail 
and what actions would address this?
    Answer. The ``Best Places to Work'' survey has consistently 
reflected that the morale in DHS is among the lowest in Federal 
service. The challenges have been well-documented over the life of the 
Department. In our prior work, we have identified the root causes of 
this, including the Department's failure to develop, implement, and 
widely disseminate clear and consistent guidance; a lack of 
communication between staff and management; and insufficient training. 
DHS has also had problems determining how to assign staff appropriately 
and hiring and retaining enough people to handle a reasonable workload 
while maintaining a work-life balance.\2\ As we noted, the Partnership 
for Public Service has made recommendations to improve employee morale 
and engagement:
---------------------------------------------------------------------------
    \2\ Major Management and Performance Challenges Facing the 
Department of Homeland Security, (November 2017) https://
www.oig.dhs.gov/sites/default/files/assets/2017/OIG-17-08-Nov16.pdf.
---------------------------------------------------------------------------
  <bullet> Holding executives accountable for improving employee 
        morale;
  <bullet> Partnering with employee groups to improve working 
        relationships;
  <bullet> Designing and executing short-term activities to act on 
        employee feedback and contribute to a potential long-term 
        culture change;
  <bullet> Developing and committing to shared organizational values 
        and aligning agency activities and employee interactions to 
        those values;
  <bullet> Increasing transparency and connecting employees to the 
        mission, the Department, and their co-workers;
  <bullet> Investing in and developing employees through leadership and 
        technical training and by providing mentoring.

                                 <all>
</pre></body></html>
